<html>
<title> - DEFFEATING A SOPHISTICATED AND DANGEROUS ADVERSARY: ARE THE NEW BORDER SECURITY TASK FORCES THE RIGHT APPROACH?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





DEFFEATING A SOPHISTICATED AND DANGEROUS ADVERSARY: ARE THE NEW BORDER 
                SECURITY TASK FORCES THE RIGHT APPROACH?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 4, 2017

                               __________

                           Serial No. 115-13

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-291 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Jeff Duncan, South Carolina          J. Luis Correa, California
Lou Barletta, Pennsylvania           Val Butler Demings, Florida
Will Hurd, Texas                     Nanette Diaz Barragan, California
John H. Rutherford, Florida          Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
     Alison Northrop, Minority Subcommittee Staff Director/Counsel
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Vice Admiral Karl L. Schultz, Director, Joint Task Force-East, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Paul A. Beeson, Commander, Joint Task Force-West, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Ms. Janice Ayala, Director, Joint Task Force-Investigations, 
  Homeland Security Investigations:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
Ms. Rebecca Gambler, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22

 
DEFFEATING A SOPHISTICATED AND DANGEROUS ADVERSARY: ARE THE NEW BORDER 
                SECURITY TASK FORCES THE RIGHT APPROACH?

                              ----------                              


                         Tuesday, April 4, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room HVC-210, Capitol Visitor Center, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives McSally, Duncan, Hurd, Rutherford, 
Vela, Correa, Demings, and Barragan.
    Ms. McSally. The Committee on Homeland Security 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine the threat 
posed by drug cartels and transnational criminal organizations 
and the Department's unified effort to defeat those threats.
    I now recognize myself for an opening statement.
    At the subcommittee's first hearing this Congress, we 
examined the advanced techniques and tactics utilized by our 
adversary to evade or circumvent our border security efforts. 
Obscene profit margins power the cartel's ability to be 
creative, nimble, and entrepreneurial as they smuggle vast 
quantities of illicit drugs across the border.
    Threats posed to the Nation by transnational criminal 
organizations whose influence extends beyond the immediate 
border zone and into the major metropolitan areas of the 
Nation, is a National security challenge.
    Now that we better understand the lengths to which the 
cartels will go to make the billions of dollars that they net 
every year, I want to shift our focus to the Department of 
Homeland Security's collective response and potential solutions 
for this immense task.
    I believe we should begin with the development of a 
counter-network approach that looks to disrupting every level 
of cartel operations. From the low-level scout on an Arizona 
hilltop guiding drug loads away from Border Patrol agents, to 
the local plaza boss taxing the movement of drugs and people 
through his area, to the cartel kingpins at the very top of the 
Sinaloa cartel.
    General Stanley McChrystal is famous for his phrase, ``It 
takes a network to defeat a network.'' That thinking can and 
should be applied to the problem set of trying to defeat an 
insidious adversary that brings death and ruin to so many.
    Does DHS have a friendly network to defeat the cartel's 
network? This is the question that we are starting to look at 
today. Do we have a coherent transnational criminal 
organizational strategy and, most importantly, is the 
Department of Homeland Security organized in a way that sets us 
up for success? I look forward to discussing those questions in 
greater detail with our witnesses today.
    As part of the Executive Order on transnational crime 
recently signed by the President, the Secretary of State, the 
attorney general and the Secretary of Homeland Security and the 
director of national intelligence are all asked to improve the 
coordination of Federal agencies' efforts to identify, 
interdict, investigate, prosecute, and dismantle transnational 
criminal organizations. I will be interested in learning what 
role DHS will play in this administration's increased focus on 
TCOs.
    Beyond our strategic approach to counter the cartels, we 
need to be properly organized to fight them as well. In 2003, 
the Department of Homeland Security was created from 22 
disparate agencies. It should not be surprising that there 
would be significant growing pains before the agency would 
function as a truly unified Department.
    Each component of the Department, be it CBP, ICE, or the 
Coast Guard, has a tendency to operate in its own silo, without 
coordination required to make border and maritime security 
efforts successful, not to mention reducing redundancy and 
overlap. This can have negative effects on logistics, 
communications, and, most importantly, operations.
    Several years ago, then-Secretary Johnson took a page from 
the Department of Defense playbook and created three joint task 
forces in an attempt to eliminate stovepipes and foster unity 
of effort along the border.
    Two of these task forces, JTF-East and West, are 
geographically based. While one, JTF-Investigations is a 
functional task force. The goal was simple: Establish a 
streamlined and unified structure that prioritizes border 
security operations and investigations against the most 
meaningful cartel actors.
    This committee, working with our Senate counterparts, 
provided a temporary 6-year authorization for the joint task 
force, which was included in last year's National Defense 
Authorization Act.
    The intent was to allow the concept to mature and provide 
ample opportunity for the Department to demonstrate to this 
committee that organizational structure has measurably 
contributed to border security that would not have happened in 
the absence of these task forces.
    In drafting the authorization, we expressly borrowed 
several concepts from the Department of Defense, including 
joint duty training, and joint duty assignments to foster a 
culture and operational mindset that we hope will transform the 
way that DHS conducts border security operations. Having done 
some joint assignments and joint training myself, I am uniquely 
interested in seeing how this applies and translates over to 
DHS.
    Today is the very first time Congress has held a hearing on 
new border security joint task forces, so I look forward to 
hearing from the commanders as we discuss how best to counter 
the growing sophistication of the Mexican cartels and the 
serious National security threat that they pose.
    [The statement of Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                             April 4, 2017
    At the subcommittee's first hearing this Congress, we examined the 
advanced techniques and tactics utilized by our adversary to evade or 
circumvent our border security efforts. Obscene profit margins power 
the cartels' ability to be creative, nimble, and entrepreneurial as 
they smuggle vast quantities of illicit drugs across the border. 
Threats posed to the Nation by transnational criminal organizations 
whose influence extends beyond the immediate border zone and into the 
major metropolitan areas of the Nation is a National security 
challenge.
    Now that we better understand the lengths to which the cartels will 
go to make the billions of dollars that they net every year, I want to 
shift our focus to the Department of Homeland Security's collective 
response and potential solutions for this immense task.
    I believe we should begin with the development of a counter-network 
approach that looks at disrupting every level of cartel operations. 
From the low-level scout on an Arizona hill-top guiding drug loads away 
from Border Patrol agents, to the local plaza boss taxing the movement 
of drugs and people through his area, to the cartel kingpins at the 
very top of the Sinaloa cartel.
    Gen. Stanley McChrystal is famous for the phrase, ``It takes a 
network to defeat a network,'' and that thinking can and should be 
applied to the problem set of trying to defeat an insidious adversary 
that brings death and ruin to so many. Does DHS have a ``friendly'' 
network to defeat the cartel's network? Do we have a coherent 
transnational criminal organization strategy and more importantly is 
the Department of Homeland Security organized in a way that sets us up 
for success?
    I look forward to discussing those questions in greater detail with 
the witnesses today.
    As part of the Executive Order on transnational crime recently 
signed by the President, the Secretary of State, the Attorney General, 
the Secretary of Homeland Security, and the Director of National 
Intelligence, are all asked to improve the coordination of Federal 
agencies' efforts to identify, interdict, investigate, prosecute, and 
dismantle transnational criminal organizations. I will be interested in 
learning what role DHS will play in this administration's increased 
focus on transnational criminal organizations.
    Beyond our strategic approach to counter the cartels, we need to be 
properly organized to fight them as well.
    In 2003, The Department of Homeland Security was created from 22 
disparate agencies. It should not be surprising that there would be 
significant growing pains before that agency would function as a truly 
unified department. Each component of the Department, be it CBP, ICE, 
or the Coast Guard, has a tendency to operate in its own silo, without 
the coordination required to make border and maritime security efforts 
successful, not to mention reducing redundancy and overlap.
    This can have negative effect on logistics, communications, and 
most importantly, operations.
    Several years ago, then-Secretary Johnson took a page from the 
Department of Defense playbook and created three joint task forces in 
an attempt to eliminate stovepipes and foster unity of effort along the 
border. Two of these task forces, JTF-East and -West, are 
geographically-based, while one, JTF-Investigations, is a functional 
task force. The goal was simple: Establish a streamlined, and unified 
structure that prioritizes border security operations and 
investigations against the most meaningful cartel actors.
    This committee, working with our Senate counterparts, provided a 
temporary 6-year authorization for the joint task forces which was 
included in last year's National Defense Authorization Act. The intent 
was to allow the concept to mature, and provide ample opportunity for 
the Department to demonstrate to this committee that organizational 
structure has measurably contributed to border security that would not 
have happened in the absence of a task force.
    In drafting the authorization, we expressly borrowed several 
concepts from the Department of Defense including joint duty training, 
and joint duty assignments to foster a culture and operational mindset 
that, we hope, will transform the way that DHS conducts border security 
operations.
    Today, is the very first time Congress has held a hearing on the 
new border security joint task forces, so I look forward to hearing 
from the commanders as we discuss how best to counter the growing 
sophistication of the Mexican cartels and the serious National security 
threat they pose.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for any 
statement he might have.
    Mr. Vela. I thank the Chair for holding today's hearing to 
examine the Department of Homeland Security Joint Task Forces. 
Those of us who represent Congressional districts on the U.S.-
Mexico border know first-hand the essential role several 
agencies within the Department of Homeland Security play in 
securing America's borders and facilitating legitimate trade 
and travel.
    Integrating the operations of the 22 different agencies 
that came together as DHS has been a challenge since the 
Department commenced operations in 2003. Nowhere is this truer 
than for border security.
    Using the Department of Defense as a guide, former 
Secretary Jeh Johnson established the Border Security Joint 
Task Forces to help ensure Customs and Border Protection, 
Immigration and Customs Enforcement, and the Coast Guard worked 
together to coordinate operations, maximize resources, and 
reduce unnecessary duplication of efforts.
    We know drug trafficking organizations adapt quickly to any 
real or perceived weakness in our security, shifting to new 
locations along the land border, using the ports of entry to 
smuggle their contraband across the border, or exploiting the 
maritime routes into this country.
    That is why it is so imperative that all of DHS work 
together to identify, disrupt, and dismantle the networks as 
quickly as they are adapted to our operations.
    Each of these agencies must work together and with their 
Federal, State, and local counterparts if we hope to combat the 
cartels effectively. With that in mind, I hope to hear from our 
DHS witnesses today about how the Joint Task Forces are 
operating currently, potential next steps and the vision for 
the future.
    I also hope to hear from our Government Accountability 
Office witness, about what prior DHS coordination efforts tell 
us about the likelihood of success with the Joint Task Forces.
    Ultimately, I believe a whole-of-Government approach that 
includes border security, cooperation with foreign partners, 
and domestic demand reduction will be necessary to addressing 
the threat that illegal drugs and those who traffic them pose 
to our country. Getting DHS's role right will be essential to 
that important effort.
    I thank the witnesses for joining us today and look forward 
to a productive discussion.
    I yield back.
    [The statement of Ranking Member Vela follows:]
                Statement of Ranking Member Filemon Vela
                             April 4, 2017
    Those of us who represent congressional districts on the U.S.-
Mexico border know first-hand the essential role several agencies 
within the Department of Homeland Security play in securing America's 
borders and facilitating legitimate trade and travel.
    Integrating the operations of the 22 different agencies that came 
together as DHS has been a challenge since the Department commenced 
operations in 2003.
    Nowhere is this truer than for border security.
    Using the Department of Defense as a guide, former Secretary Jeh 
Johnson established the border security Joint Task Forces to help 
ensure Customs and Border Protection, Immigration and Customs 
Enforcement, and the Coast Guard work together to coordinate 
operations, maximize resources, and reduce unnecessary duplication of 
efforts.
    We know drug trafficking organizations adapt quickly to any real or 
perceived weakness in our security, shifting to new locations along the 
land border, using the ports of entry to smuggle their contraband 
across the border, or exploiting the maritime routes into this country.
    That is why it is so imperative that all of DHS works together to 
identify, disrupt, and dismantle the networks as quickly as they are 
adapted to our operations.
    Each of these agencies must work together and with their Federal, 
State, and local counterparts if we hope to combat the cartels 
effectively.
    With that in mind, I hope to hear from our DHS witnesses today 
about how the Joint Task Forces are operating currently, potential next 
steps, and the vision for the future.
    I also hope to hear from our Government Accountability Office (GAO) 
witness about what prior DHS coordination efforts tell us about the 
likelihood for success with the Joint Task Forces.
    Ultimately, I believe a whole-of-Government approach that includes 
border security, cooperation with foreign partners, and domestic demand 
reduction will be necessary to addressing the threat that illegal drugs 
and those who traffic them pose to our country.
    Getting DHS's role right will be essential to that important 
effort. I thank the witnesses for joining us today and look forward to 
a productive discussion.

    Ms. McSally. Other Members of the committee are reminded 
that opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 4, 2017
    The establishment and authorization of the Department of Homeland 
Security's Joint Task Forces was a major priority for former Secretary 
of Homeland Security Jeh Johnson. Secretary Johnson was in a position 
to observe first-hand many of the coordination challenges that continue 
to face the Department of Homeland Security, almost 15 years after its 
establishment.
    Those of us who have conducted oversight of the Department since it 
was created from 22 different Federal departments and agencies also 
understand the effects of that legacy, which persist today.
    Drawing on the example of the Department of Defense, and launched 
as part of a Unity of Effort campaign, the Joint Task Forces are meant 
to set the conditions for the Department to act in a more unified 
fashion.
    Coordination of the border security activities of the Department in 
particular is critical, given the number of DHS components that play a 
role in the mission, including the Coast Guard, Customs and Border 
Protection, Immigration and Customs Enforcement.
    The Government Accountability Office (GAO) has closely examined 
issues regarding coordination among Department components and programs 
over the years. We are grateful to have Ms. Gambler from GAO with us 
today to testify about her work on border security issues and DHS 
coordination and share her thoughts about whether and how the Joint 
Task Forces can be successful.
    I also want to note that the discussion about facilitating border 
security coordination and cooperation is moot if these agencies are not 
properly resourced by the Trump administration.
    Hiring 15,000 Border Patrol agents and ICE agents and officers 
while ignoring critical CBP staffing shortages at ports of entry does 
not enhance our Nation's border security.
    Securing the areas of the border between the ports of entry while 
leaving the proverbial front door to the country thousands of officers 
short creates glaring security vulnerability.
    Similarly, slashing the Coast Guard's already lean budget makes no 
sense from a security perspective. Enhancing security on the land 
borders but crippling the Coast Guard's ability to patrol our coasts 
would undermine border security, as drug traffickers will surely shift 
their operations to the path of least resistance.
    I look forward to hearing from our witnesses today about the 
resources they need to fulfill their border security mission, and how 
the Joint Task Forces can be an important part of that effort.

    Ms. McSally. We are pleased to be joined today by four 
distinguished witnesses to discuss this important topic.
    Vice Admiral Carl Schultz assumed the duties as the 
director of DHS Joint Task Force East in August 2016. In this 
role, Admiral Schultz is responsible for his joint operating 
area, which covers the Caribbean Ocean and eastern Pacific 
region and Central America.
    In addition to those roles and responsibilities, Admiral 
Schultz served as commander, Coast Guard Defense Force East, 
which provides Coast Guard mission support to the Department of 
Defense and combatant commanders.
    Commander Paul Beeson is the commander of the Joint Task 
Force-West, with responsibilities for security along the entire 
southern land border and the coast of California. Previously, 
Director Beeson was the commander of Joint Task Force-West 
Arizona and chief of the Tucson Sector Border Patrol.
    Ms. Janice Ayala is the director of Joint Task Force-
Investigations, which prioritizes and integrates support for 
criminal investigations along both Joint Task Force-West and 
East, to mitigate the risk of terrorism, dismantle 
transnational criminal organizations, and reduce illicit 
traffic. Previous to this assignment, Ms. Ayala served as the 
deputy director of Joint Task Force-West and focused integrated 
counter-network operations.
    Ms. Rebecca Gambler is the director of the U.S. Government 
Accountability Office, Homeland Security and Justice team, 
where she leads GAO's work on border security, immigration, and 
Department of Homeland Security's management and 
transformation.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Admiral Schultz for 5 minutes to 
testify.

 STATEMENT OF VICE ADMIRAL KARL SCHULTZ, DIRECTOR, JOINT TASK 
        FORCE-EAST, U.S. DEPARTMENT OF HOMELAND SECURITY

    Admiral Schultz. Good morning, Chairwoman McSally, Ranking 
Member Vela, Members of the subcommittee. It is a pleasure to 
appear today on behalf of the Department of Homeland Security, 
to discuss Joint Task Force East and our efforts to address 
transnational criminal organizations and the threats they pose 
to the safety and the security of the United States.
    I request that my full written statement that was provided 
earlier, be submitted into the record, as you noted, Madam 
Chairwoman.
    As the director of Joint Task Force-East and commander for 
Coast Guard operations east of the Rocky Mountains, my staffs 
collaborate across the Department of Homeland Security 
component agencies with the Department of Defense and with 
other interagency and international partners on a continual 
basis, to deliver operational effect against transnational 
criminal organizations, commonly referred within the law 
enforcement community as TCOs.
    These TCOs are highly resilient, highly adaptive, and they 
require a whole-of-Government solution to thwart their illicit 
activities. Our roughly 40-member JTF-East team is comprised of 
members from Customs Border Protection, ICE, the United States 
Coast Guard. My two deputy directors: One is a Customs Border 
Protection and Marine director, and the other is from HSI.
    JTF-East's geographic area of responsibility and joint 
operations area is vast, as you noted, and that is included in 
my written statement, ma'am.
    Established to enhance unity of effort, build regional 
cooperation, and define operational priorities, the DHS 
Secretary gave the task force a wide mandate to achieve 
effective enforcement interdiction across land, sea, and air 
domains in order to degrade these transnational criminal 
organizations, while facilitating the flow of lawful trade, 
legal commerce across our borders.
    At Joint Task Force-East, we strive to lead the planning 
and coordination of DHS component, counter-network enforcement 
operations directed at disrupting transnational criminal 
organizations across our joint operating area.
    To best coordinate across the many individual component 
operational entities, JTF-East has adopted a regional 
integrating group or RIG framework, with our initial focus 
being on the eastern RIG, which encompasses Puerto Rico and the 
U.S. Virgin Islands, a region replete with transnational 
criminal activity.
    Under this RIG construct, our DHS components are working in 
close collaboration to develop standard operational plans that 
support regional surge operations aimed at weakening and 
defeating criminal networks.
    Our efforts aim to enable better information sharing and 
the optimal utilization of high-demand, low-availability 
enforcement assets, such as cutters, aircraft, small boats, as 
well as finite intelligence, analysts, and investigators. While 
still nascent in our development, the benefits of improved 
unity of effort to DHS mission accomplishments are promising.
    For example, during our November 26 surge of resources to 
the Puerto Rican-U.S. Virgin Island vector, JTF worked with DHS 
components under their standing Caribbean guard operation and 
with the Department of Defense to reallocate resources 
stationed outside the region to support the Eastern Caribbean 
RIG's resource shortfalls, as well as leverage refined 
intelligence support from the Department of Defense's Joint 
Interagency Task Force South, often referred to as JIATF-South.
    The collaborative efforts enabled the arrests of 13 
individuals, the interdiction of 88 migrants from both shore 
and sea, the seizure of 500 kilograms of cocaine, 28 kilograms 
of marijuana, $77,000 in bulk cash, and two vessels.
    These efforts also disrupted a Nationally-identified 
priority transnational criminal organization. As a director, I 
am pleased that the unity of effort was enhanced across the 
components in pursuit of joint operational priorities.
    Our task force works to fill intelligence gaps between the 
maritime and land domains in order to cultivate a comprehensive 
perspective on emerging threats. Joint Task Force-East has been 
identified as the Secretary's single touch-point in the event 
of increased or mass maritime migration.
    Zeroing in on the Joint Task Force shared operating area in 
Central America, we are supporting aggressive efforts to 
counter TCOs at the earliest possible points in their supply 
chains.
    By increased collaboration with DHS and Homeland Security 
investigations, international attaches, the Department of 
Defense, international and interagency partners, efforts such 
as the JTF-East led Western Hemisphere Illicit Pathways 
Initiative, or what we refer to as WHIP, promote information 
sharing and collaboration in the fight against TCOs in Central 
America, by enabling partner nations to enroll, share, and 
collaborate on biometric data on migrants and special interest 
aliens transiting through Central America.
    In closing, I am pleased to report that the DHS Joint Task 
Forces are enhancing unity of effort, building regional 
cooperation, and more clearly defining operational priorities. 
From my vantage point at the helm of Joint Task Force-East, 
continued progress on these fronts is instrumental to defeating 
transnational criminal organizations and making America safer.
    Continued maturation of the JTS will strengthen the 
Department of Homeland Security and enable broader cooperation 
and coordination across the whole-of-Government enterprise and 
internationally as well.
    Thank you for the opportunity to testify before you today, 
and I look forward to your questions.
    [The prepared statement of Admiral Schultz follows:]
                 Prepared Statement of Karl L. Schultz
                             April 4, 2017
                              introduction
    Good morning Madam Chairwoman, Ranking Member Vela, and 
distinguished Members of the subcommittee. It is a pleasure to be here 
today on behalf of the Department of Homeland Security (DHS) to discuss 
how Joint Task Force-East (JTF-E)--one of three Joint Task Forces 
established under the DHS Southern Border and Approaches Campaign Plan 
(SBACP)--is working to address the threats posed by Transnational 
Criminal Organizations (TCOs) to the safety and security of the United 
States.
    I assumed the duties as director of Joint Task Force-East in August 
2016 and look forward to continued strong partnership and collaboration 
with my counterparts, U.S. Border Patrol (USBP) Chief Paul Beeson, 
director of the Joint Task Force-West; and Janice Ayala, director of 
the Joint Task Force-Investigations, from U.S. Immigration and Customs 
Enforcement (ICE), Homeland Security Investigations (HSI).
                          jtf-east background
    Before the creation of the DHS Joint Task Forces (JTFs), DHS 
agencies in the field regularly worked together to achieve significant 
enforcement results; however, these results frequently relied upon a 
network of informal personal relationships and overlapping agency 
priorities, versus a clear framework that directed regional efforts. 
The JTF construct formalizes operational processes between regional- 
and National-level DHS components, and establishes enduring functional 
relationships between DHS agencies. JTF-E's organization provides a 
platform for operational continuity at the National level and optimizes 
a complex network of relationships with other non-DHS law enforcement 
and inter-agency partners.
    Joint Task Forces were established to enhance unity of effort, 
build regional cooperation, and define operational priorities. The 
SBACP gave the JTFs a wide mandate to achieve effective enforcement and 
interdiction across land, sea, and air domains; and to degrade TCOs 
while facilitating the flow of lawful trade, travel, and commerce 
across borders. As the JTF-E director, I thank the committee for its 
role supporting the authorization that enabled the DHS Secretary to 
formally establish JTFs.
    Today I am pleased to report, under the JTF construct, DHS 
components in the field are working in close collaboration to develop 
standard operational plans supporting regional operations to defeat 
these criminal networks. We leverage existing DHS facilities and 
capabilities to stand-up Joint Information Operations Centers to best 
coordinate information sharing and asset utilization. The enhanced 
coordination and sharing of resources and information is improving our 
ability to more comprehensively target and dismantle TCOs through a 
``whole of Department/unity of effort'' approach. While still nascent 
in our development at JTF-E, the benefits to DHS mission accomplishment 
are very promising.
    JTF-E's geographic responsibility includes the international waters 
of the Gulf of Mexico, the Caribbean Sea, and the Eastern Pacific 
Ocean--southward to the north coast of South America, the airspace 
spanning U.S. territorial lands and waters; also, the international 
airspace in the approaches to Central America is shared with JTF-West.
    My dual-hatted status as a member of the Armed Forces responsible 
for Coast Guard operations east of the Rocky Mountains, and as the JTF-
E Director, positions me well to coordinate and collaborate across DHS 
agencies and with Department of Defense (DoD) Geographic Combatant 
Commands, including U.S. Southern Command (USSOUTHCOM) and U.S. 
Northern Command (USNORTHCOM). This positioning enhances information 
sharing and assists in identifying DoD resources that could be 
requested to support DHS Component-led operations. JTF-E's two deputy 
directors are Senior Executive Service (SES) representatives from U.S. 
Customs and Border Protection (CBP)--Air and Marine Operations; and 
ICE-HSI, with additional members from CBP's Office of Field Operations 
and the USBP. The JTF-E staff of just over 40 detailees provide key 
touch points and experience essential to building relationships and 
processes crucial to JTF-E's performance.
                       current status of jtf-east
    JTF-E's task is to lead the coordination of DHS component 
enforcement efforts to plan and implement enhanced counter-network 
operations directed at disrupting TCOs across its Joint Operating Area 
(JOA). Secretary Kelly has directed the JTFs to target individuals and 
organizations whose criminal conduct undermines border security or the 
integrity of the immigration system, including alien smuggling or 
trafficking, drug trafficking, illegal entry and reentry, visa fraud, 
identity theft, unlawful possession or use of official documents, and 
acts of violence committed against persons or property at or near the 
border. These broad responsibilities make the JTFs distinct from other 
DHS task forces which have more specific functional roles.
    Given the geographic size and complexity of our JOA, coordinating 
efforts among the hundreds of individual component operational entities 
with distinct missions, chains of command, responsibilities, and 
operating areas remains a challenge. JTF-E has focused its efforts on 
coordinating operations within our newly created Regional Integrating 
Groups (RIGs), beginning with the Eastern Caribbean RIG. JTF-E has also 
conducted initial planning meetings with the Central Caribbean and Gulf 
Coast RIGs.
    The JTFs seek to harmonize DHS-wide operational priorities with the 
priorities of local front-line component offices working at the 
tactical level. Through a repeatable, deliberate planning process that 
best aligns available resources against both regional and National 
Department-level threats, JTF-E enhances enforcement at the field 
level.
    For example, from November 10 to November 22, 2016, JTF-E, 
partnering with the Eastern Caribbean RIG, coordinated a push of 
resources to Puerto Rico in support of the Caribbean Border Interagency 
Group's (CBIG) operation ``Caribbean Guard,'' a standing joint 
operation in Puerto Rico and the U.S. Virgin Islands that seeks to 
deter, disrupt, and dismantle TCOs.
    JTF-E and regional DHS leadership received and validated resource 
requests from ICE, CBP, the U.S. Coast Guard (USCG), and other 
partners, and developed a consolidated, interagency resource request in 
order to reallocate resources stationed outside of Puerto Rico to meet 
the joint operational requirements. These resources included additional 
CBP aircraft, DoD linguist support, and a USCG Maritime Safety and 
Security Team operating out of the Virgin Islands. Additionally, JTF-E 
leveraged refined intelligence support from Joint Inter-Agency Task 
Force-South (JIATF-S). The collaborative effort enabled by JTF-E 
yielded 13 arrests, 70 migrants intercepted ashore and 18 migrants 
interdicted at sea, the seizure of more than 500 kilograms of cocaine 
and 28 kilograms of marijuana, over $77,000 in bulk cash, and two 
vessels. These actions also disrupted a Nationally-identified priority 
TCO. However, these numbers only partially capture the results of the 
integrated field operations.
    Enhancing Unity of Effort in the pursuit of joint operational 
priorities is also a key goal of the JTF concept. JTF-E improves 
synchronization of cross-component capabilities that provide timely, 
actionable, fused ``all-source'' intelligence. Additionally, JTF-E 
intelligence efforts fill in the intelligence gaps between the maritime 
and land domains, while also leveraging cross-component personnel to 
cultivate a comprehensive perspective on emerging threats. Our most 
recent example includes JTF-E compiling and coordinating existing 
intelligence prepared by CBP, ICE, USCG, USSOUTHCOM, JIATF-S, the Drug 
Enforcement Agency, and others, in order to produce an all-inclusive 
threat overview, termed a Joint Intelligence Preparation of the 
Operating Environment (JIPOE).
    To thwart illegal maritime migration, the recently-developed DHS 
Maritime Migration Contingency Plan identifies JTF-E as the Secretary's 
single touch-point in the event of increased or mass maritime 
migration. JTF-E's recently clarified roles will enable the Secretary 
to receive consolidated information and make validated requests for 
assistance to DoD, thus allowing for more rapid decision making and 
analysis. JTF-E recently exercised this role in a large-scale multi-
week USSOUTHCOM exercise and implemented it during the recent 
termination of the wet-foot/dry-foot policy affecting Cuban maritime 
migration.
                      future jtf-east engagements
    In addition to our responsibility to coordinate within our 
Department, JTF-E supports DHS's aggressive efforts to counter TCOs at 
the earliest possible points in their supply chains via increased 
collaboration with our partners in Mexico, Central and South America, 
and the Caribbean. JTF-E leads the Western Hemisphere Illicit Pathways 
Initiative (WHIP), promoting information sharing and collaboration with 
our partner nations to fight against TCOs in Central America and 
Special Interest Aliens transiting through Central America and the 
Caribbean. Through collaboration with DoD's Combating Terrorism and 
Technical Support Office, JTF-E continues to explore technology 
solutions that enable the law enforcement missions of U.S. and 
international partners, while illuminating illicit pathways throughout 
the Western Hemisphere.
    JTF-E is actively working with the Eastern Caribbean RIG, the 
Central Caribbean RIG and the Gulf Coast RIG to facilitate additional 
near-term joint operations. These efforts will build upon the lessons 
learned from prior joint operations supporting regional DHS components, 
as well as enhanced collaboration across departmental and interagency 
lines. Enhanced intelligence sharing and informational analysis will 
also be incorporated as interagency law enforcement coordination is 
improved and future operational processes are further refined.
                               conclusion
    The JTFs are new and reside in a department with a short 14-year 
history that is responsible for the critical and complex task of 
securing our homeland and our borders. JTF-East, JTF-West, and JTF-
Investigations operate collaboratively to unify operations on a daily 
basis to achieve the objective of the Southern Border and Approaches 
Campaign Plan. All three Task Forces are enhancing unity of effort, 
building regional cooperation, and are more clearly defining 
operational priorities. Continued progress on these fronts is 
instrumental to defeating TCOs and making America safer. TCOs are 
adaptive and resilient, investing a significant amount of resources and 
time in adjusting tactics to subvert our efforts. Combating TCOs will 
continue to be a priority for the JTFs, as they play a key role in our 
layered border security strategy. As JTFs mature, they will continue to 
strengthen cooperation within DHS and improve coordination both 
internationally and across the whole-of-Government enterprise.

    Ms. McSally. Thank you, Admiral Schultz.
    The Chair now recognizes Commander Beeson for 5 minutes to 
testify.

STATEMENT OF PAUL A. BEESON, COMMANDER, JOINT TASK FORCE-WEST, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Chief Beeson. Good morning, Chairwoman McSally, Ranking 
Member Vela, and distinguished Members of this subcommittee. 
Thank you for the opportunity to appear here today to discuss 
Joint Task Force-West.
    During the hearing before this committee on February 16 of 
this year, we discussed the unique challenges faced by several 
DHS components in combatting the threats posed by transnational 
criminal organizations.
    During that hearing, I discussed the advanced tactics and 
techniques and the networks used by TCOs to smuggle drugs, and 
humans, toward and across our Southwest Border, into the United 
States.
    Today I would like to discuss with you Joint Task Force-
West and some of the steps that DHS has taken to confront the 
threats posed by these sophisticated TCOs and their illicit 
networks.
    Thanks to the support of Congress in the past decade, DHS 
has deployed more personnel, resources, technology, and 
tactical infrastructure to secure our borders than at any other 
time in history.
    While DHS components are now better equipped because of 
these investments, we must continue to evolve to a more cross-
functional operations model, to counter a threat that exploits 
our jurisdictional seams.
    In response to the growing TCO threat, DHS has sought to 
capitalize on past successes realized through increased 
coordination between DHS components. Pursuant to the Southern 
Border and Approaches Campaign, we piloted a structure for 
coordinating operational integration of the joint task forces.
    JTF-West was responsible for the Southwest Border with 
Mexico from California to Texas. The land approaches through 
Mexico to this border, the littorals of the Gulf of Mexico off 
Texas, and then the Pacific Ocean off California and the air 
space spanning U.S. territorial land and waters.
    JTF activities are coordinated and conducted through DHS 
components situated in four operational corridors, aligning DHS 
enforcement efforts with known traffic flows of illegal cross-
border activities.
    This integration across geographic and agency boundaries 
along the entire Southwest Border, is helping us to identify 
priority TCOs and complex and expansive networks, operatives, 
and affiliates. This enables us to design strategies to disrupt 
and ultimately dismantle these TCOs and illicit networks.
    While the JTFs are still in the early stages of integration 
and organizational set-up, we have realized some successful 
outcomes of our coordination efforts. In fiscal year 2016, JTF-
W identified a total of 19 TCOs prioritized for disruption or 
dismantlement, using a developed and standardized interagency 
process.
    Four of these original TCOs have been dismantled. JTF-W and 
JTF-I continue to coordinate with DHS components to disrupt and 
dismantle those remaining TCOs that are still active.
    In addition to these longer-term efforts, JTF-W led the 
coordination and execution of Operation All-In. This operation 
sought to synchronize intelligence-gathering investigations, 
interdictions, and other efforts against known human smuggling 
facilitators across the Southwest Border and into the interior 
of the United States. These individuals had been operating with 
impunity up to that point and profiting financially from their 
criminal enterprise.
    Based on the initial success of Operation All-In, we have 
transitioned this operational concept to an open-ended steady-
state enforcement effort.
    These JTFs are examples of how DHS has embarked on enhanced 
information sharing and joint operational planning and 
execution. TCOs recognize no borders or authorities. The only 
way to combat a threat of this nature is to leverage the 
collective capabilities of DHS partner agencies and 
governments.
    In support of the recent Presidential Executive Orders 
related to immigration enforcement, border and National 
security, and the guidance set forth by DHS Secretary Kelly, 
JTF-W will continue to employ its counter-network strategy 
against TCOs and illicit networks to enhance the safety and 
security of the homeland.
    Chairwoman McSally, Ranking Member Vela, and distinguished 
Members of the subcommittee, thank you for the opportunity to 
testify today. I look forward to your questions.
    [The prepared statement of Chief Beeson follows:]
                  Prepared Statement of Paul A. Beeson
                             April 4, 2017
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear today on 
behalf of the Department of Homeland Security (DHS or the Department), 
to discuss how the Joint Task Force-West (JTF-W)--one of three Joint 
Task Forces established under the DHS Southern Border and Approaches 
Campaign (SBAC)--is working to address the threats posed by 
Transnational Criminal Organizations (TCOs) to the safety and security 
of the United States.
    Although I officially assumed my duties as Director of JTF-W in 
December 2016, I reported to JTF-W Headquarters in San Antonio, Texas, 
on March 5, 2017. I look forward to working closely with my 
counterparts, U.S. Coast Guard (USCG) Vice-Admiral Karl Schultz, 
director of the Joint Task Force-East, and Janice Ayala, director of 
the Joint Task Force-Investigations, from U. S. Immigration and Customs 
Enforcement (ICE), Homeland Security Investigations (HSI).
    Thanks to the support of Congress, during the past decade DHS has 
deployed more personnel, resources, technology, and tactical 
infrastructure to secure our borders than at any other time in history. 
DHS has harnessed this support to expand the whole-of-Government 
approach to border security--one that leverages the authorities and 
capabilities of multiple departments and agencies and extends 
international partnerships--to multiply our efforts to counter the 
dynamic and sophisticated tactics and techniques that TCOs use to 
penetrate our border.
    The Southwest Border (SWB) of the United States is a highly diverse 
environment with equally diverse threats to the security and safety of 
our border communities and communities throughout the United States. 
TCOs operating along the SWB are engaged in the smuggling and 
trafficking of aliens, narcotics, weapons, currency, and other illicit 
goods. The nearly unlimited financial resources generated by TCOs' 
criminal activities afford them a freedom of action that challenges 
traditional law enforcement strategies. TCOs are also highly mobile and 
maintain sophisticated cross-border networks, operating throughout the 
SWB environments including at and between ports of entry (POE), and in 
the land, air, and maritime domains.
                      jtf-w history and structure
    JTF-W, which became fully operational in July 2015, was established 
as a pilot program as part of the SBAC. The SBAC leverages the range of 
unique Department authorities, responsibilities, and capabilities to 
enhance and unify our operational approach to address comprehensive 
threat environments and complements the biennial National Southwest 
Border Counternarcotics Strategy. JTF-W, with U.S. Customs and Border 
Protection (CBP) serving as its executive agent, supports the 
Department's Unity of Effort initiative, through the integrated 
Corridor structure, by identifying, disrupting, and dismantling threats 
posed by TCOs to the SWB of the United States. We coordinate and 
support integrated counter-network operations against priority TCOs 
engaged in criminal cross-border activity, employing a whole-of-
Government approach to deliver the greatest possible consequences 
against these prioritized TCOs. What is different today is that JTF-W 
leads the coordination of these efforts in a joint environment. We 
build on the collective capabilities of the DHS components to plan and 
coordinate operations using the collective strength of the Department, 
in support of DHS goals. It is in a joint environment such as 
JTF-W where the full capabilities of DHS can be leveraged and focused 
to address emerging and priority threats to the Homeland.
    The JTF-W Joint Operating Area (JOA), established by the SBAC, 
includes the land border with Mexico from California to Texas, the land 
approaches through Mexico to this border, the littorals in the Gulf of 
Mexico off Texas and in the Pacific Ocean off California, and the 
airspace spanning U.S. territorial land and waters. JTF-W and JTF-E 
share Central America as part of their respective JOAs. JTF-W 
activities are coordinated and conducted through four operational 
corridors pursuant to the CBP Commissioner's Integrated Corridor 
Operations Model memorandum: The South Texas Corridor; the New Mexico/
West Texas Corridor; the Arizona Corridor; and the California Corridor. 
This Integrated Corridor Operations Model facilitates cross-component 
coordination, enabling the DHS components in these corridors to execute 
targeted border security operations across the JTF-W JOA against 
prioritized TCOs in a manner and scope that previously did not exist. 
Corridor leadership is comprised of senior representatives from each 
DHS component within the geographic region, including CBP, ICE, and 
USCG. By drawing leadership from each DHS component, JTF-W coordinates 
through existing command-and-control structures to synchronize 
component efforts, specifically to:
  <bullet> Integrate and align component intelligence capabilities to 
        achieve the JTF-W mission;
  <bullet> Prioritize investigative efforts to disrupt, degrade, and 
        dismantle TCOs and illicit networks;
  <bullet> Institutionalize and standardize integrated counter-network 
        operations to identify and target TCOs and illicit networks;
  <bullet> Strengthen international, prosecutorial, and deterrent 
        efforts against TCO enterprises and significant activity 
        impacting the JTF-W JOA; and
  <bullet> Advance the JTF-W mission through unified communication and 
        messaging efforts.
    Since its inception, JTF-W has employed and continues to refine a 
standardized, DHS-wide counter-network strategy throughout its JOA. 
JTF-W works to ensure that intelligence is shared, threats and targets 
are prioritized, and operations are planned and executed jointly by 
facilitating the coordination and collaboration of the operational 
Components across DHS, specifically CBP, ICE, USCIS, and USCG. To 
achieve maximum operational flexibility, JTF-W is currently staffed 
with not-to-exceed (NTE) and temporary duty (TDY) personnel from these 
components. All employed equipment and assets are temporarily realigned 
from the components to support JTF-W activities. JTF-W staff from the 
represented components coordinate efforts related to intelligence, 
operations, logistics, administration, and external engagement. JTF-W 
further supports the efforts of DHS in external outreach and engagement 
with other Federal partners such as Department of Justice, Department 
of State, and Department of Defense.
                     jtf-w efforts to counter tcos
    The dynamic threats posed by TCOs necessitate a united, 
comprehensive strategy and an aggressive approach by multiple entities 
across all levels of Government. To combat the challenges posed by 
TCOs, JTF-W is focused on both long-term investigative operations 
against priority TCOs, as well as short-term operations against other 
associated networks, operatives, and affiliates.
    For example, the Threat and Intelligence Priorities Assessment 
(TIPA) is component-neutral assessment tool that provides a thorough 
analysis of the threats facing each unique operating environment. This 
approach enables multiple agencies to examine the same set of threats 
within and across mission and geographic areas of responsibility. It 
provides the ability to individually and collectively identify and 
understand the highest-priority threats in the region. This is the 
first time that these DHS entities along the SWB have utilized one 
process to produce a joint threat assessment.
    JTF-W led the initiative to implement a standardized operational 
planning process across the SWB Corridors. This process was aligned 
with the overarching DHS Operational Planning Guidance and the DHS 
Campaign Plan for Securing the U.S. Southern Border and Approaches. 
Through this process, JTF-W is able to articulate how strategic goals 
are being implemented tactically through named operations, targeting 
prioritized TCOs. An example of this collaboration was Operation OPTAR. 
In Arizona this past year, DHS components from the JTF-W Arizona 
Corridor jointly planned and executed an operation targeting heroin 
smuggling through the POE. This joint effort resulted in the seizure of 
almost 5,000 kilograms of drugs, including heroin, cocaine, marijuana, 
and methamphetamines bound for the United States and 12,000 rounds of 
ammunition and approximately $80,000 bound for Mexico.
    JTF-W is uniquely situated to centralize mission requirements to 
expand information sharing and Information Technology systems across 
the Department. While the mission requirements are not new, JTF-W has 
served as a catalyst for inter-agency information sharing. For example, 
JTF-W expanded access to traditional component-centric systems by 
establishing a true joint environment where enforcement personnel could 
leverage the breadth of information and authorities of the Department 
to target every level of these criminal networks. JTF-W will continue 
to coordinate expanded information-sharing capabilities, enhancing 
operational capabilities, and more efficiently leveraging DHS and our 
partners' resources.
    In fiscal year 2016, JTF-W and JTF-I identified 19 TCOs prioritized 
for disruption or dismantlement, using a standardized inter-agency 
process that did not exist prior to the creation of this task force. 
This prioritization allowed DHS to focus its enforcement efforts on 
permanently dismantling these TCOs. JTF-W monitored and evaluated 
enforcement actions (i.e., civil penalties, arrests, removals, and 
seizures) to evaluate its effectiveness based on existing DHS 
performance measures. Of these original 19 TCOs, JTF-W has dismantled 
four. JTF-W and the JTF-I continue to coordinate with DHS components to 
disrupt and dismantle the remaining TCOs that are still active. For 
fiscal year 2017, these processes are being refined, standardized, and 
institutionalized.
    In addition to these longer-term efforts, JTF-W led the 
coordination and execution of Operation All In. This Secretary-approved 
operation, the first of its kind within the Department, synchronized 
intelligence-gathering, investigation, and interdiction cross-component 
efforts against known human-smuggling facilitators across the SWB and 
parts of the interior United States. As a result of Operation All In, 
204 targets with extensive ties to human smuggling networks, who had 
been operating up to that point with impunity and profiting financially 
from this criminal enterprise, were identified and encountered. Based 
on the initial success of Operation All In, the DHS Secretary approved 
this operational concept as an open-ended, steady-state enforcement 
effort.
    Recognizing that DHS is not alone in the fight against TCOs, JTF-W, 
through the integrated corridor structure, actively partners with 
numerous other Federal, State, local, and Tribal law enforcement 
agencies, as well as international partners. These partnerships are 
critical to JTF-W's ability to coordinate operations to disrupt and 
dismantle TCOs engaged in illicit smuggling activities across the JOA. 
Of note, prosecutors accepted 97 percent of the Operation All In 
targets that were presented for criminal prosecution at either the 
Federal or State level, demonstrating the high-degree of external 
coordination between law enforcement and prosecuting attorneys.
    In the international arena, JTF-W prioritizes its efforts to 
advance border and regional security in alignment with DHS's 
International Engagement Strategy, and supporting the binational 
programs with the government of Mexico, and in the near future, Central 
America. These initiatives, which are coordinated through existing 
mechanisms at the attache, component, and Department level, advance 
border security through binational partnerships, foreign country 
capacity building, and enhanced international engagement.
    In addition to these enforcement efforts, JTF-W has leveraged 
internal and external relationships as part of a public messaging 
campaign. For example, JTF-W has created an on-going series of short 
videos as a cost-neutral effort to deter illegal migration and raise 
awareness of the atrocities, abuses, extortion, and natural hazards 
migrants will encounter on their journey. These videos, which are 
produced internally using organic resources and personnel, received 
extensive distribution both domestically and abroad. To date, three 
videos have been viewed 555,000 times via multiple social media 
platforms such as Facebook and Twitter, and have been broadcast by 
Univision, Telemundo, and other Spanish-language television outlets.
                               next steps
    President Trump recently issued two Executive Orders \1\ that 
direct additional tools and resources for securing the Southern 
Border--to prevent illegal immigration, drug and human trafficking, and 
acts of terrorism. The Executive Orders also prioritize enforcement of 
Federal law in order to thwart TCOs and other groups engaged in illicit 
activities that present a threat to public safety and National 
security. Specifically, per Secretary Kelly's February 20, 2017, 
implementation memo,\2\ 
JTF-W will plan and implement enhanced counter-network operations 
directed at disrupting TCOs, particularly those involved in human 
smuggling. Working with our Federal, State, and local law enforcement 
partners, the JTF-W will target individuals and organizations whose 
criminal conduct undermines border security or the integrity of the 
immigration system, including offenses related to alien smuggling or 
trafficking, drug trafficking, illegal entry and reentry, visa fraud, 
identity theft, unlawful possession or use of official documents, and 
acts of violence committed against persons or property at or near the 
border. We will take all appropriate steps to implement the provisions 
of the President's Executive Orders, which support the Department's 
efforts to disrupt and dismantle TCOs that are fortifying their illicit 
networks in the border region.
---------------------------------------------------------------------------
    \1\ Executive Order 13767: Border Security and Immigration 
Enforcement Improvements, January 25, 2017. https://www.whitehouse.gov/
the-press-office/2017/01/25/executive-order-border-security-and-
immigration-enforcement-improvements; and Executive Order 13773: 
Enforcing Federal Law with Respect to Transnational Criminal 
Organizations and Preventing International Trafficking, https://
www.whitehouse.gov/the-press-office/2017/02/09/Presidential-executive-
order-enforcing-Federal-law-respect-transnational.
    \2\ Memo: Implementing the President's Border Security and 
Immigration Enforcement Improvements Policies. February 20, 2017. 
https://www.dhs.gov/sites/default/files/publications/
17_0220_S1_Implementing-the-Presidents-Border-Security-Immigration-
Enforcement-Improvement-Policies.pdf.
---------------------------------------------------------------------------
    Moving forward, JTF-W, through its coordination and collaboration 
efforts, will support DHS Secretary Kelly's vision for the Joint Task 
Forces to enhance counter-network operations directed at disrupting 
TCOs impacting the SWB. Our efforts will remain focused on human 
smuggling TCOs and illicit networks, while additionally targeting those 
involved in drug trafficking, currency smuggling, and other related 
cross-border crimes. Through integration, collaboration, and 
coordination efforts, JTF-W will prioritize efforts to disrupt and 
dismantle TCOs and illicit networks presenting the greatest risk to the 
homeland.
    JTF-W will continue to evaluate, refine, and institutionalize 
processes and procedures to maximize efficiency and effectiveness. We 
will expand investigative and operational reach by leveraging domestic 
and international partners to increase intelligence and information 
sharing and coordinate law enforcement actions beyond the SWB region. 
This same approach will be instrumental in enhancing domestic 
relationships with Federal, State, and local law enforcement partners 
to effectively share information and optimize enforcement actions 
against those illicit organizations that threaten the security of the 
SWB and its approaches. This whole-of-Government approach will enable 
DHS and its partners to attack TCOs and illicit networks at their most 
vulnerable points, regardless of where they reside.
                               conclusion
    DHS is committed to mitigating the threats posed by TCOs operating 
along the SWB. With continued support from Congress, JTF-W will support 
component efforts to disrupt and dismantle TCOs by improving the 
coordination and collaboration with all partners, foreign, and 
domestic. The JTF-W counter-network strategy will expand the 
enforcement zone from point-of-origin to point-of-destination; 
including transit zones, the Southern Border, and the approaches, 
harnessing the collective capabilities of DHS and its partners through 
a Unity of Effort.
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of subcommittee, thank you for the opportunity to testify today. As I 
mentioned earlier, DHS is embarking on a new era of joint operational 
planning and operations. TCOs recognize no borders or authorities. The 
only way to attack an enemy of this nature is to leverage the 
collective capabilities of DHS, partner agencies, and governments. JTF-
W will continue to employ its counter-network strategy against TCOs and 
illicit networks to enhance the safety, security, and prosperity of the 
homeland. I look forward to your questions.

    Ms. McSally. Thank you, Commander Beeson.
    The Chair now recognizes Ms. Ayala for 5 minutes.

    STATEMENT OF JANICE AYALA, DIRECTOR, JOINT TASK FORCE--
        INVESTIGATIONS, HOMELAND SECURITY INVESTIGATIONS

    Ms. Ayala. Good morning, Chairwoman McSally, Ranking Member 
Vela, and distinguished Members. Thank you for the opportunity 
to appear before you today. As a senior executive of 
Immigration and Customs Enforcement Homeland Security 
Investigations, I serve as the director of Joint Task Force-
Investigations, or JTF-I.
    JTF-I, JTF-East, and JTF-West are responsible for 
establishing operational priorities and synchronizing 
capabilities. While JTF-East and West are geographically-
focused task forces, JTF-I is a functional task force with no 
geographic boundaries, established to improve the investigative 
functions within DHS.
    Consisting of over 60 interagency investigators and 
analysts and operators, primarily from ICDP, and Coast Guard, 
we utilize a process that prioritizes and integrates support 
for criminal investigations along the U.S. Southern Border and 
approaches, to dismantle transnational criminal organizations, 
prevent their reconstitution and reduce illicit flows.
    Our success depends upon a high level of cooperation, 
transparency, and communication in consolidating resources and 
leveraging unique domestic and international authorities to 
combat TCOs. The primary TCOs that threaten border security on 
the Southwest Border are Mexican cartels.
    Over the last decade, the United States, working with 
foreign law enforcement and military counterparts, has had 
sustained success in attacking cartel leadership. However, this 
success is countered by the fact that the cartels are highly 
networked with built-in redundancies and adaptability.
    Cartels move illicit proceeds. They hide assets and exploit 
vulnerabilities in the financial system through trade-based 
money laundering, funnel accounts, and the misuse of money 
service businesses. We have an abundance of investigative tools 
in our arsenal to target money laundering and financial 
violations.
    ICE has assigned more than 1,500 special agents to 
investigate crime along the Southwest Border by TCOs, some of 
them assigned to the Border Enforcement Security Task Forces, 
which provide a comprehensive regional approach or response to 
the regional border security threats.
    In addition to leveraging domestic assets, we work closely 
with attache personnel assigned to 66 offices in 49 countries, 
to include the engagement of ICE HSI Transnational Criminal 
Investigative Units or TCIUs. They are composed of DHS-trained 
host country vetted counterparts who have the authority to 
investigate and enforce violations in their respective 
countries.
    These efforts, often thousands of miles from the U.S.-
Mexico border in countries like Colombia and Mexico, 
essentially act as an outer layer of security for the Southwest 
Border.
    In fiscal year 2016, drug-smuggling investigations 
conducted by the five HSI Southwest Border SAC offices, 
resulted in over 6,000 arrests and nearly 4,000 indictments.
    JTF-I prioritizes these and other DHS component 
investigations across international boundaries, prosecutorial 
jurisdictions, agency missions, programs in operation areas, 
and as a result of which is the scores of the United States and 
foreign investigations and prosecutions.
    To accomplish this, JTF-I developed and manages the DHS-
wide nominations election process for priority criminal 
networks, called HomeCort, or Homeland Criminal Organization 
Target.
    JTF-I also developed National case coordination that 
manages the most serious and complex criminal investigations 
impacting Homeland Security, in support of DHS taskforce and 
component priorities.
    JTF-I staff produces over 3,500 hours of monthly support, 
analytical and investigative, to HomeCort investigations, while 
developing and improving best practices related to joint 
investigations, analysis, and targeting.
    Over the last 20 months, JTF-I coordinated and supported 
the targeting of 14 homeland criminal networks comprised of 
several hundred individual criminal investigations involved in 
money laundering, sex trafficking, and the smuggling of drugs 
or cash, weapons and human cargo, to include special interest 
aliens. As of today, 11 of those 14 criminal networks have been 
dismantled to the point they no longer pose a threat to 
homeland security.
    Thank you again for the opportunity to appear before you 
today, for your continued support of DHS and its mission, and I 
will be happy to take any questions at this time.
    [The prepared statement of Ms. Ayala follows:]
                   Prepared Statement of Janice Ayala
                             April 4, 2017
    Chairman McSally, Ranking Member Vela, and distinguished Members: 
Thank you for the opportunity to appear before you today to discuss the 
Department of Homeland Security's (DHS) solutions to threats posed by 
drug cartels and smugglers, and the efforts of the DHS Joint Task 
Forces (JTFs). As a senior executive of U.S. Immigration and Customs 
Enforcement (ICE), Homeland Security Investigations (HSI), the primary 
criminal investigators of DHS, I serve as director of Joint Task Force-
Investigations (JTF-I). ICE has been designated as the executive agent 
of JTF-I.
    Former Department of Homeland Security Secretary Jeh Johnson 
announced the Department's new Unity of Effort Initiative in April 
2014. On May 8, 2014, former Secretary Johnson announced and directed 
our Department-wide Southern Border and Approaches Campaign (SBAC) 
Plan. The SBAC is part of a comprehensive security strategy designed to 
unify efforts across DHS components to address threats specifically 
associated with terrorism, illicit market-driven flows, and illegal 
migration across our Southern Border and approaches. In furtherance of 
the Department-wide SBAC, former Secretary Johnson commissioned three 
pilot Joint Task Forces (JTFs) on November 20, 2014. The three Joint 
Task Forces, JTF-I, JTF-East (JTF-E), and JTF-West (JTF-W), are 
responsible for establishing operational priorities and synchronizing 
capabilities in order to achieve SBAC objectives.
    Two of the JTFs, JTF-East (JTF-E) and JTF-West (JTF-W), are 
geographically-focused task forces that concentrate on the southern 
land and maritime borders of the United States and the approaches to 
our border--all the way to Central and South America. As a 
``functional'' task force, JTF-I was established to improve the 
investigative functions within the Department in furtherance of the 
SBAC Plan. JTF-I uses a Department-wide process that prioritizes and 
integrates support for criminal investigations along the U.S. Southern 
Border and approaches to mitigate the risk of terrorism, dismantle 
transnational criminal organizations (TCOs), prevent their 
reconstitution, and reduce illicit flows.
    JTF-I operates within the diverse mission space of the SBAC. JTF-
I's ability to facilitate cross-cutting partnerships between components 
with overlapping mission responsibilities allows the SBAC to operate 
with a higher level of cooperation, transparency, and effectiveness. By 
consolidating resources and refining duplicative efforts, the JTF-I 
leverages unique domestic and international authorities that are 
integral to the elimination of targeted TCOs. JTF-I's coordination has 
led to the successful disruption of several smuggling networks, which I 
describe in detail below.
    We leverage HSI's broad authority, unique investigative tools, and 
global footprint to secure our borders, working in close coordination 
with U.S. Customs and Border Protection (CBP), the U.S. Coast Guard 
(USCG), Joint Task Forces-East and -West, and many other domestic and 
international law enforcement and customs partners to target TCOs. 
Today, I will provide JTF-I's perspective on the solutions to the 
sophisticated smuggling threats that we face on our Southwest Border, 
the approaches that lead up to our border, and some of what we do to 
address TCOs and their smuggling activities before contraband arrives 
at our borders, and even in the interior of the United States.
                 the cartels along the southwest border
    The primary TCOs that threaten the Southwest Border of the United 
States are Mexican drug cartels (the cartels). Over the last decade, 
the United States, working with our Mexican law enforcement and 
military counterparts, has had sustained success in attacking cartel 
leaders, as evidenced by the recent extradition of Joaquin Guzman 
Loera, aka ``El Chapo'', to face prosecution in the United States. 
However, every law enforcement success against the cartels is countered 
by the fact that the cartels are highly-networked organizations with 
built-in redundancies that adapt on a daily basis based on their 
intelligence of U.S. border security and law enforcement.
    While drug smuggling remains the focal point for media and 
community interest, the threat and crimes associated with human 
smuggling are prevalent and very much real. Based on investigatory 
evidence and collected intelligence, we observe that human smuggling 
enterprises and the cartels maintain a symbiotic relationship with each 
other. Certain members of these criminal enterprises control the major 
U.S. and foreign drug markets and others control the smuggling flow 
across certain geographic areas of the border on behalf of their 
cartel. Some/most human smugglers are required to pay taxes and fees to 
cartels for access to smuggling routes through specific geographic 
areas and are subject to physical violence and/or death if proper 
coordination and compensation are not rendered. In addition, failed 
coordination between the cartels and human smuggling enterprises 
greatly increases the risk of unwanted law enforcement attention and 
investigative efforts.
    The cartels move illicit proceeds, hide assets, and conduct 
transactions globally. Among the various methods cartels use to 
transfer and launder their illicit proceeds are bulk cash smuggling, 
trade-based money laundering, funnel accounts, professional money 
launderers, and the misuse of Money Service Businesses (MSB) and 
emerging payment systems. The cartels exploit vulnerabilities in both 
the U.S. and Mexican financial system and conduct layered financial 
transactions to circumvent regulatory scrutiny, which presents 
difficulties for authorities attempting to distinguish between licit 
and illicit use of the financial system. The U.S. Government has 
refined our ability to target money laundering and financial violations 
through various techniques, to include interagency investigations, 
training, and capacity-building, targeted financial sanctions, and 
direct engagement with at-risk financial institutions and 
jurisdictions.
    U.S. Anti-Money Laundering laws and regulations impose customer 
identification, recordkeeping, and reporting obligations on covered 
financial institutions that help deter criminals from moving illicit 
proceeds through the financial system. These preventive measures also 
create valuable evidentiary trails for law enforcement to employ during 
an investigation. As such, HSI has an abundance of investigative tools 
in our arsenal to disrupt and dismantle cartel money laundering 
operations as well as to discourage new actors from engaging in illicit 
activity.
              smuggling trends along the southwest border
    The Southwest Border is a diverse environment, including maritime 
borders in both the Gulf of Mexico and on the Pacific Ocean that 
transition to vast land border areas that include rivers, rural 
agricultural lands, and densely-populated urban areas along the nearly 
2,000 miles of our Southern Border. In response to these vastly 
different areas, the cartels adapt their methods and cargo to the 
smuggling environment.
    Mexico is a major source and transit country for illicit drugs 
destined for the United States. It is a primary source of marijuana, 
methamphetamine, and heroin, and a key transit area for cocaine.
    As a result of Mexico's dominant role as either a source or transit 
point for illicit drugs destined for the United States, it has also 
become a primary destination for the illicit proceeds that the cartels 
earn from their distribution networks in the United States. Mexican 
cartels use a variety of techniques to repatriate illicit proceeds, 
from bulk cash smuggling to sophisticated trade-based money-laundering 
schemes. Many of the more complex techniques rely on third-party money 
launderers and corrupt individuals at financial institutions.
                           attacking the tcos
    To investigate TCOs impacting Southwest Border security, ICE has 
assigned more than 1,500 special agents and almost 150 intelligence 
research specialists to Southwest Border offices, to include the Border 
Enforcement Security Task Forces (BESTs), which provide a comprehensive 
regional response to the growing threat to border security, public 
safety, and National security. This includes border security at land, 
maritime, and international airports. In fiscal year 2016, ICE drug 
smuggling investigations conducted by the five HSI Special Agent in 
Charge offices along the Southwest Border resulted in 5,659 criminal 
arrests, 3,941 indictments, 3,383 convictions, and 330 administrative 
immigration arrests.
    JTF-I prioritizes these and other DHS component investigations, to 
best focus on an integrated approach transcending border-centric 
activities, into broad counter-network operations. These networks are 
comprised of international, border, and domestic elements conspiring 
together that require a multitude of investigations from a variety of 
offices.
    In addition to leveraging domestic assets, we work closely with 
attache personnel deployed to 66 offices in 49 countries that are 
uniquely positioned to utilize established relationships with host 
country law enforcement, to include the engagement of Transnational 
Criminal Investigative Units (TCIUs). These TCIUs are composed of DHS-
trained host country counterparts who have the authority to investigate 
and enforce violations of law in their respective countries. Since our 
law enforcement officers working overseas do not possess general law 
enforcement or investigative authority in most host countries, the use 
of these TCIUs enables ICE to promote direct action in its 
investigative leads while respecting the sovereignty of the host 
country and cultivating international partnerships. These efforts, 
often thousands of miles from the U.S.-Mexico border in countries like 
Colombia and Panama, essentially act as an outer layer of security for 
our Southwest Border.
    Mexico has proven to be an outstanding partner in the fight against 
TCOs, taking down the cartels' top leadership and working to dismantle 
these organizations. ICE's attache office in Mexico City is the largest 
ICE presence outside of the United States and has coordinated the 
establishment of TCIUs in Mexico comprised of Mexican law enforcement 
officers. ICE attache personnel work daily with Mexican authorities to 
combat these transnational threats. Additionally, ICE--along with other 
DHS components--actively works through the Department of State to 
provide training and technical assistance to our Mexican counterparts. 
The spirit of collaboration and joint effort between DHS components and 
our counterparts in Mexico is unprecedented.
    JTF-I is responsible for enhancing and integrating criminal 
investigations in support of the operational priorities of JTF-East, 
JTF-West, the components, and DHS Headquarters. To accomplish this, 
JTF-I manages the DHS-wide nomination and selection process for 
Homeland Criminal Organization Targets (HOMECORTs), the top 
transnational criminal networks impacting homeland security, and then 
coordinates the dozens of investigations and operations targeting each 
HOMECORT.
    HOMECORT consists of three parts. The first is a nomination and 
selection process for prioritizing the top transnational criminal 
networks that are threatening homeland security based on the specific 
threats prioritized and described in 
JTF-E and JTF-W operational priorities. The second is the development 
of comprehensive knowledge about the criminal network (hierarchy, 
associations, activities, etc.), which is called Comprehensive Criminal 
Network Analysis (CCNA). The third is National Case Coordination, a 
term used to describe centralized management and support of complex and 
priority investigations of entire criminal networks that cross 
jurisdictions, programs, and interagency and international boundaries. 
The ultimate goal of a HOMECORT investigation is the complete 
dismantlement of the criminal network that is the subject of the 
investigation. Dismantlement is defined as destroying the target 
organization's leadership, network, and financial base to the point 
that the organization is incapable of reconstituting itself.
    HOMECORT criminal networks typically cross international 
boundaries, prosecutorial jurisdictions, agency missions, programs, and 
operations areas; and, as a result, are linked to scores of U.S. and 
foreign partner investigations, operations, prosecutions, seizures, and 
apprehensions. HOMECORT cases are the most serious and complex criminal 
investigations conducted by the Federal Government, as they typically 
involve all functions of Federal policing and governance including 
investigations, patrol, inspections, immigration, citizenship, finance, 
justice, public integrity, public health and safety, trade, and 
diplomacy.
    JTF-I consists of over 60 interagency investigators, analysts, and 
operators, primarily from ICE, CBP, and Coast Guard, located in ICE 
headquarters and embedded in National Capital Regional Centers. As 
members of an ICE HSI-led Task Force, these detailees have full access 
to Investigative Case Management systems, analytical tools, and other 
unique and useful investigative information that they typically would 
not have at their own agency. JTF-I staff provides over 3,500 hours of 
monthly analytical support to HOMECORT investigations and SBAC and JTF 
priorities while developing and improving best practices related to 
joint investigations, analysis, and targeting.
    By filling a gap in the coordination of National-level cases and 
leveraging the broad knowledge, skills, and capabilities of its 
interagency detailees, JTF-I achieved significant successes disrupting 
several transnational criminal networks (involving hundreds of criminal 
investigations) that threatened homeland security. Equally important, 
JTF-I coordination has helped overcome many of the obstacles to 
information sharing, investigative integration with operational forces, 
tactical cueing, and intelligence support that previously plagued other 
task forces, interagency initiatives, and National programs.
    Over the last 20 months, JTF-I coordinated and supported the 
targeting of 14 HOMECORT criminal networks, comprised of several 
hundred individual criminal investigations. Presently, 11 of these 14 
criminal networks have been dismantled to the point they no longer 
threaten homeland security. The 11 networks include human smugglers, 
sex traffickers, drug smugglers, money launderers, bulk cash smugglers, 
weapons smugglers, and smugglers of special interest aliens. The three 
other HOMECORT criminal networks continue to be the targets of active 
criminal investigations. Efforts against current and future HOMECORT 
criminal networks will be enhanced by Executive Order 13773, Enforcing 
Federal law with Respect to Transnational Criminal Organizations and 
Preventing International Trafficking (the EO). Among other things, the 
EO directs the entire Executive branch to strengthen its enforcement of 
Federal law to thwart TCOs, prioritize and dedicate sufficient 
resources to disable and dismantle TCOs, develop strategies to counter 
the crimes committed by TCOs, and otherwise pursue and support efforts 
to defeat TCOs. Solidifying HOMECORT as the DHS-wide process for 
identifying and prioritizing the top criminal networks impacting 
homeland security will help to fulfill all of these objectives. The EO 
also directs DHS to use HOMECORT to identify and describe homeland 
security threats to the National Security Council's Threat Mitigation 
Working Group. And, the EO supports further JTF-I engagement with 
foreign partners to build investigative capacities through operations 
such as HSI's CITADEL, an investigative surge operation to identify, 
disrupt, and dismantle Transnational Criminal Organizations (TCOs), 
Drug Trafficking Organizations (DTOs) and terrorist networks by 
targeting the mechanisms they use to move people, illicit funds, and 
contraband through the Central America (CENTAM) corridor. CITADEL 
integrates each of the JTF-I HOMECORT cases and associated targets with 
International Operations, as well as other HSI priority cases. 
Specifically, CITADEL focuses on leveraging HSI and Partner Nation (PN) 
authorities and subject-matter expertise to dismantle priority TCO 
targets involved in human and bulk cash smuggling, as well as narcotics 
smuggling.
                               conclusion
    Thank you again for the opportunity to appear before you today and 
for your continued support of DHS and its mission. JTF-I is committed 
to stemming cross-border criminal organizations through the various 
efforts I have discussed today. I appreciate your interest in these 
important issues.

    Ms. McSally. Thank you Ms. Ayala.
    The Chair now recognizes Ms. Gambler for 5 minutes.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
     JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good morning, Chairwoman McSally. Good morning 
Ranking Member Vela, and Members of the subcommittee. Thank you 
for the opportunity to testify at today's hearing to discuss 
GAO's work on collaborative mechanisms and other programs DHS 
has used in its border security effort.
    My remarks today will summarize GAO's work in two areas: 
First collaborative mechanisms for coordinating border security 
operations, and second, DHS efforts to assess its use of 
resources and programs to secure the border.
    With regard to the first area, over time DHS and its 
components have used various mechanisms and task forces to 
coordinate and collaborate on border security efforts. These 
have included entities like component-led border security task 
forces, broader multi-agency collaborative groups to share 
information and leverage access, and the more recent joint task 
forces that are the subject of today's hearing.
    Our work on some of these different groups has identified 
various practices that contributed to successful 
collaborations, such as the sharing of resources and 
information and the building of positive working relationships.
    However, our work has also identified barriers or 
challenges to successful collaboration. These challenges 
included resource constraints or limited resource commitments 
by participating agencies and lack of common objectives.
    We previously recommended that DHS evaluate the effects of 
some of its past collaborative mechanisms to include collecting 
information on and reviewing best practices and identifying 
areas for possible improvement. Consideration of past successes 
and challenges could assist DHS's current task forces in 
building capacity and implementing their organizations.
    Through our work, we have also identified the need for DHS 
to strengthen coordination for specific border security 
programs.
    For example, in a report we issued to the subcommittee in 
February of this year, we found that CBP needs to better 
document procedures for coordinating its operations using 
Predator B unmanned aerial system, and we recommended that CBP 
do so. CBP concurred with our recommendation and plans to take 
steps to address it.
    With regards to my second area, we have reported on the 
need for DHS to strengthen its efforts to assess the 
effectiveness of a range of border security programs and 
resources. For example, we have reported on CBP to deploy 
sensing and surveillance technologies along the Southwest 
Border.
    A key finding from these reports has been the need for DHS 
to establish metrics for assessing the contributions of 
infrastructure and technology to border security. In 
particular, while CBP collects data that could be useful in 
assessing contributions to border security, such as the 
location of the legal entries, CBP has not developed metrics to 
make these assessments, and we have recommended that CBP do so.
    In other areas, we have reported on the need for CBP to 
strengthen its data collection or methodologies for reporting 
results. For example, in a February 2017 report for the 
subcommittee, we recommended that CBP improve its practices for 
collecting and reporting data related to Predator B and 
tactical aerostat operation to help the agency better assess 
the effectiveness of these operations.
    We also reported in January on steps CBP could take to 
strengthen its methodology for calculating recidivism rates, 
which is the percentage of aliens apprehended multiple times 
along the Southwest Border.
    In particular, we found that CBP's methodology does not 
account for an alien's apprehension over multiple years or 
apprehended aliens for whom there is no record of removal from 
the United States and he may remain in the country.
    Among other things, we recommended that CBP strengthen its 
methodology for calculating recidivism by accounting for an 
alien's apprehension history beyond one fiscal year, and 
excluding aliens for whom there is no record of removal.
    In closing, we will continue to follow up on and monitor 
for actions DHS and its components have taken in response to 
our recommendations across a number of border security 
programs, assets, and efforts.
    The ability of DHS and its components to effectively assess 
and measure the contributions of various border security task 
forces, programs, and assets is important for providing 
insights on current border security investments and can help 
inform future decision making.
    This concludes my oral statement, and I would be pleased to 
answer questions Members may have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                             April 4, 2017
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee: I am pleased to be here today to discuss the Department 
of Homeland Security's (DHS) efforts to coordinate and assess its 
border security operations. Securing U.S. borders is the responsibility 
of DHS, in collaboration with other Federal, State, local, and Tribal 
entities. Within DHS, U.S. Customs and Border Protection (CBP) is the 
lead agency for border security and is responsible for, among other 
things, keeping terrorists and their weapons, criminals and their 
contraband, and inadmissible aliens out of the country.\1\ The United 
States international border with Mexico (Southwest Border) continues to 
be vulnerable to illegal cross-border activity, and DHS reported 
apprehending over 331,000 illegal entrants and making over 14,000 
seizures of drugs in fiscal year 2015.
---------------------------------------------------------------------------
    \1\ See 6 U.S.C.  211(a) (establishing CBP within DHS), (c) 
(enumerating CBP's duties).
---------------------------------------------------------------------------
    Over time, DHS and CBP have established various collaborative 
mechanisms along the southern U.S. border, including the Southwest 
Border and southern maritime approaches, to integrate CBP operations 
and improve interagency coordination. For example, CBP, U.S. 
Immigration and Customs Enforcement (ICE), U.S. Coast Guard (Coast 
Guard), and other stakeholders have partnered to form multiple joint 
task forces. To further support collaboration, DHS and CBP coordinate 
use of resources, including a variety of technology and assets such as 
aircraft. For example, CBP's Air and Marine Operations (AMO) uses 
Predator B unmanned aerial systems (UAS) and other aircraft equipped 
with video and radar surveillance technology along the Southwest Border 
to conduct border security efforts, in part, through coordination with 
joint task forces.
    GAO has identified best practices for implementing interagency 
collaboration--broadly defined as any joint activity that is intended 
to produce more public value than could be produced when agencies act 
alone.\2\ Among other things, these best practices note that agencies 
can enhance and sustain their collaborative efforts by developing 
mechanisms to monitor, evaluate, and report on results. In addition, we 
found that all collaborative mechanisms benefit from certain key 
features, such as implementing processes to track and monitor progress 
toward short-term and long-term outcomes. With regard to assessing its 
progress and efforts to secure the border, CBP components collect a 
variety of data on their use of resources and programs. For example, 
CBP's U.S. Border Patrol (Border Patrol) collects data that support 
efforts to address smuggling and other illegal cross-border activity 
along the U.S. Southwest Border through its Consequence Delivery System 
(CDS) program--a process to classify each apprehended alien into 
criminal or noncriminal categories and apply various criminal, 
administrative, and programmatic consequences, such as Federal 
prosecution, most likely to deter future illegal activity. In addition, 
Border Patrol collects a variety of data on its apprehension of aliens 
and seizures of narcotics along the Southwest Border and on use of 
resources such as tactical infrastructure--fencing, gates, roads, 
bridges, lighting, and drainage--and surveillance technology, such as 
towers equipped with video cameras and radar technology. AMO also 
collects data on its use of air and maritime assets; for example, 
seizures and apprehensions provided for by support from its Predator B 
UAS and Tethered Aerostat Radar System (TARS) program--fixed site 
unmanned buoyant craft tethered to the ground equipped with radar 
technology.
---------------------------------------------------------------------------
    \2\ GAO, Results-Oriented Government: Practices That Can Help 
Enhance and Sustain Collaboration Among Federal Agencies, GAO-06-15 
(Washington, DC: Oct. 21, 2005) and Managing for Results: Key 
Considerations for Implementing Interagency Collaborative Mechanisms, 
GAO-12-1022 (Washington, DC: Sept. 27, 2012).
---------------------------------------------------------------------------
    Over the years, we have reported on the progress and challenges DHS 
faces in implementing its border security efforts, including 
establishing collaborative mechanisms and assessing the effectiveness 
of its use of resources and programs along the border. My statement 
discusses our past findings on: (1) DHS's efforts to implement 
collaborative mechanisms along the Southwest Border and (2) DHS's 
efforts to assess its use of resources and programs to secure the 
Southwest Border.
    My statement today is based on reports and testimonies we issued 
from September 2013 through February 2017 that examined DHS efforts to 
enhance border security and assess the effectiveness of its border 
security operations (see Related GAO Products at the end of this 
statement). Our reports and testimonies incorporated information we 
obtained by examining DHS's collaborative mechanisms established along 
the Southwest Border; reviewing CBP policies and procedures for 
coordinating use of assets; analyzing DHS data related to enforcement 
program and asset assists or instances in which a technological asset 
assisted in the apprehension of illegal entrants, seizure of drugs or 
other contraband; and interviewing relevant DHS officials. In addition, 
since 2013, we assessed the extent to which DHS and CBP have 
implemented recommendations by reviewing supporting documentation. More 
detailed information about our scope and methodology can be found in 
our reports and testimonies. We conducted all of this work in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
    dhs and cbp have established collaborative mechanisms along the 
 southwest border, but could strengthen coordination of predator b uas 
                               operations
DHS and CBP Have Implemented a Variety of Collaborative Mechanisms to 
        Coordinate Border Security Efforts
    DHS and its components have used various mechanisms over time to 
coordinate border security operations. In September 2013, we reported 
that the overlap in geographic and operational boundaries among DHS 
components underscored the importance of collaboration and coordination 
among these components.\3\ To help address this issue and mitigate 
operational inflexibility, DHS components, including those with border 
security-related missions such as CBP, Coast Guard, and ICE, employed a 
variety of collaborative mechanisms to coordinate their missions and 
share information. These mechanisms had both similarities and 
differences in how they were structured and on which missions or 
threats they focused, among other things, but they all had the 
overarching goal of increasing mission effectiveness and efficiencies. 
For example:
---------------------------------------------------------------------------
    \3\ GAO, Department of Homeland Security: Opportunities Exist to 
Enhance Visibility Over Collaborative Field Mechanisms, GAO-13-734 
(Washington, DC: Sept. 27, 2013). Among other things, we recommended 
that DHS take steps to increase its visibility over how collaborative 
field mechanisms operate. DHS concurred and implemented actions to 
collect information about the mechanisms.
---------------------------------------------------------------------------
  <bullet> In 2011, the Joint Targeting Team originated as a CBP-led 
        partnership among the Del Rio area of Texas, including Border 
        Patrol, CBP's Office of Field Operations, and ICE. This 
        mechanism was expanded to support the South Texas Campaign 
        (STC) mission to disrupt and dismantle transnational criminal 
        organizations, and its membership grew to include additional 
        Federal, State, local, Tribal, and international law 
        enforcement agencies.\4\
---------------------------------------------------------------------------
    \4\ CBP developed and implemented the STC to identify and address 
current and emerging threats along the border in South Texas. The STC 
conducts targeted operations to disrupt and degrade the ability of 
transnational criminal organizations to operate throughout the South 
Texas corridor while it simultaneously facilitates legitimate trade and 
travel.
---------------------------------------------------------------------------
  <bullet> In 2005, the first Border Enforcement Security Task Force 
        (BEST) was organized and led by ICE, in partnership with CBP, 
        in Laredo, Texas, and additional units were subsequently formed 
        along both the Southern and Northern Borders. The BESTs' 
        mission was to identify, disrupt, and dismantle existing and 
        emerging threats at U.S. land, sea, and air borders.
  <bullet> In 2011, CBP, Coast Guard, and ICE established Regional 
        Coordinating Mechanisms (ReCoM) to utilize the fusion of 
        intelligence, planning, and operations to target the threat of 
        transnational terrorist and criminal acts along the coastal 
        border. Coast Guard served as the lead agency responsible for 
        planning and coordinating among DHS components.
    In June 2014, we reported on STC border security efforts along with 
the activities of two additional collaborative mechanisms: (1) The 
Joint Field Command (JFC), which had operational control over all CBP 
resources in Arizona; and (2) the Alliance to Combat Transnational 
Threats (ACTT), which was a multi-agency law enforcement partnership in 
Arizona.\5\ We found that through these collaborative mechanisms, DHS 
and CBP had coordinated border security efforts in information sharing, 
resource targeting and prioritization, and leveraging of assets. For 
example, to coordinate information sharing, the JFC maintained an 
operations coordination center and clearinghouse for intelligence 
information. Through the ACTT, interagency partners worked jointly to 
target individuals and criminal organizations involved in illegal 
cross-border activity. The STC leveraged assets of CBP components and 
interagency partners by shifting resources to high-threat regions and 
conducting joint operations.
---------------------------------------------------------------------------
    \5\ GAO, Border Security: Opportunities Exist to Strengthen 
Collaborative Mechanisms Along the Southwest Border, GAO-14-494 
(Washington, DC: June 27, 2014).
---------------------------------------------------------------------------
    More recently, the Secretary of Homeland Security initiated the 
Southern Border and Approaches Campaign Plan in November 2014 to 
address the region's border security challenges by commissioning three 
DHS joint task forces to, in part, enhance collaboration among DHS 
components, including CBP, ICE, and Coast Guard. Two of DHS's joint 
task forces are geographically-based, Joint Task Force-East and Joint 
Task Force-West, and one which is functionally based, Joint Task Force-
Investigations. Joint Task Force-West is separated into geographic 
command corridors with CBP as the lead agency responsible for 
overseeing border security efforts to include: Arizona, California, New 
Mexico/West Texas, and South Texas. Coast Guard is the lead agency 
responsible for Joint Task Force-East, which is responsible for the 
southern maritime and border approaches. ICE is the lead agency 
responsible for Joint Task Force-Investigations, which focuses on 
investigations in support of Joint Task Force-West and Joint Task 
Force-East. Additionally, DHS has used these task forces to coordinate 
various border security activities, such as use of Predator B UAS, as 
we reported in February 2017 and discuss below.\6\
---------------------------------------------------------------------------
    \6\ GAO, Border Security: Additional Actions Needed to Strengthen 
Collection of Unmanned Aerial Systems and Aerostats Data, GAO-17-152 
(Washington, DC: Feb. 16, 2017).
---------------------------------------------------------------------------
Collaborative Mechanism Participants Identified Practices that Enhanced 
        or Served as Challenges to Collaboration
    In September 2013, we reported on successful collaborative 
practices and challenges identified by participants from eight border 
security collaborative field mechanisms we visited--the STC, four BESTs 
and 3 ReCoMs.\7\ Their perspectives were generally consistent with the 
seven key issues to consider when implementing collaborative mechanisms 
that we identified in our 2012 report on interagency collaboration.\8\ 
Among participants who we interviewed, there was consensus that certain 
practices facilitated more effective collaboration, which, according to 
participants, contributed to the groups' overall successes. For 
example, participants identified three of the seven categories of 
practices as keys to success: (1) Positive working relationships/
communication, (2) sharing resources, and (3) sharing information. 
Specifically, in our interviews, BEST officials stated that developing 
trust and building relationships helped participants respond quickly to 
a crisis, and communicating frequently helped participants eliminate 
duplication of efforts. Participants from the STC, BESTs, and ReCoMs 
also reported that having positive working relationships built on 
strong trust among participants was a key factor in their law 
enforcement partnerships because of the sensitive nature of law 
enforcement information, and the risks posed if it is not protected 
appropriately. In turn, building positive working relationships was 
facilitated by another collaborative factor identified as important by 
a majority of participants: Physical collocation of mechanism 
stakeholders. Specifically, participants from the mechanisms focused on 
law enforcement investigations, such as the STC and BESTs, reported 
that being physically collocated with members from other agencies was 
important for increasing the groups' effectiveness.
---------------------------------------------------------------------------
    \7\ GAO-13-734.
    \8\ GAO-12-1022. We identified seven features of successful 
collaborative mechanisms: (1) Outcomes and accountability; (2) Bridging 
organizational cultures; (3) Leadership; (4) Clarity of roles and 
responsibilities; (5) Participants; (6) Resources; and (7) Written 
guidance and agreements.
---------------------------------------------------------------------------
    Participants from the eight border security collaborative field 
mechanisms we visited at the time also identified challenges or 
barriers that affected their collaboration across components and made 
it more difficult. Specifically, participants identified three barriers 
that most frequently hindered effective collaboration within their 
mechanisms: (1) Resource constraints, (2) rotation of key personnel, 
and (3) lack of leadership buy-in. For example, when discussing 
resource issues, a majority of participants said funding for their 
group's operation was critical and identified resource constraints as a 
challenge to sustaining their collaborative efforts. These participants 
also reported that since none of the mechanisms receive dedicated 
funding, the participating Federal agencies provided support for their 
respective representatives assigned to the selected mechanisms. Also, 
there was a majority opinion among mechanism participants we visited 
that rotation of key personnel and lack of leadership buy-in hindered 
effective collaboration within their mechanisms. For example, STC 
participants stated that the rotation of key personnel hindered the 
STC's ability to develop and retain more seasoned personnel with 
expertise in investigations and surveillance techniques.
    In addition, in June 2014, we identified coordination benefits and 
challenges related to the JFC, STC, and ACTT.\9\ For example, DHS and 
CBP leveraged the assets of CBP components and interagency partners 
through these mechanisms to conduct a number of joint operations and 
deploy increased resources to various border security efforts. In 
addition, these mechanisms provided partner agencies with increased 
access to specific resources, such as AMO air support and planning 
assistance for operations. Officials involved with the JFC, STC, and 
ACTT also reported collaboration challenges at that time. For example, 
officials from 11 of 12 partner agencies we interviewed reported 
coordination challenges related to the STC and ACTT, such as limited 
resource commitments by participating agencies and lack of common 
objectives. In particular, one partner with the ACTT noted that there 
had been operations in which partners did not follow through with the 
resources they had committed during the planning stages. Further, JFC 
and STC officials cited the need to improve the sharing of best 
practices across the various collaborative mechanisms, and CBP 
officials we interviewed identified opportunities to more fully assess 
how the mechanisms were structured. We recommended that DHS establish 
written agreements for some of these coordination mechanisms and a 
strategic-level oversight mechanism to monitor interagency 
collaboration. DHS concurred and these recommendations were closed as 
not implemented due to planned changes in the collaborative mechanisms.
---------------------------------------------------------------------------
    \9\ GAO-14-494.
---------------------------------------------------------------------------
CBP Has Established Mechanisms to Coordinate Its Use of Predator B UAS, 
        but Could Benefit From Documented Procedures for Coordinating 
        its Predator B UAS Operations
    In February 2017, we found that as part of using Predator B 
aircraft to support other Government agencies, CBP established various 
mechanisms to coordinate Predator B operations.\10\ CBP's Predator B 
aircraft are National assets used primarily for detection and 
surveillance during law enforcement operations, independently and in 
coordination with Federal, State, and local law enforcement agencies 
throughout the United States. For example, at AMO National Air Security 
Operations Centers (NASOC) in Arizona, North Dakota, and Texas, 
personnel from other CBP components are assigned to support and 
coordinate mission activities involving Predator B operations.\11\ 
Border Patrol agents assigned to support NASOCs assist with directing 
agents and resources to support its law enforcement operations and 
collecting information on asset assists provided for by Predator B 
operations. Further, two of DHS's joint task forces also help 
coordinate Predator B operations. Specifically, Joint Task Force-West, 
Arizona and Joint Task Force-West, South Texas coordinate air asset 
tasking and operations, including Predator B operations, and assist in 
the transmission of requests for Predator B support and communication 
with local field units during operations, such as Border Patrol 
stations and AMO air branches.\12\
---------------------------------------------------------------------------
    \10\ GAO-17-152.
    \11\ As of fiscal year 2016, CBP operated nine Predator B aircraft 
from four AMO NASOCs in Arizona, Florida, North Dakota, and Texas. 
CBP's Predator B aircraft are launched and recovered at its NASOCs in 
Sierra Vista, Arizona; Corpus Christi, Texas; and Grand Forks, North 
Dakota; while the NASOC in Jacksonville, Florida remotely operates 
Predator B aircraft launched from other NASOCs. CBP's Predator B 
aircraft are equipped with video and radar sensors primarily to provide 
intelligence, surveillance, and reconnaissance capabilities.
    \12\ Joint Task Force-West, Arizona's area of responsibility 
includes Tucson and Yuma Border Patrol sectors. Joint Task Force-West, 
South Texas's area of responsibility includes Rio Grande Valley, 
Laredo, and Del Rio Border Patrol sectors.
---------------------------------------------------------------------------
    In addition to these mechanisms, CBP has documented procedures for 
coordinating Predator B operations among its supported or partner 
agencies in Arizona specifically by developing a standard operating 
procedure for coordination of Predator B operations through its NASOC 
in Arizona. However, CBP has not documented procedures for coordination 
of Predator B operations among its supported agencies through its 
NASOCs in Texas and North Dakota. CBP has also established National 
policies for its Predator B operations that include policies for 
prioritization of Predator B missions and processes for submission and 
review of Predator B mission or air support requests. However, these 
National policies do not include coordination procedures specific to 
Predator B operating locations or NASOCs. Without documenting its 
procedures for coordination of Predator B operations with supported 
agencies, CBP does not have reasonable assurance that practices at 
NASOCs in Texas and North Dakota align with existing policies and 
procedures for joint operations with other Government agencies. Among 
other things, we recommended that CBP develop and document procedures 
for Predator B coordination among supported agencies in all operating 
locations. CBP concurred with our recommendation and stated that it 
plans to develop and implement an operations coordination structure and 
document its coordination procedures for Predator B operations through 
Joint Task Force-West, South Texas and document its coordination 
procedures for Predator B operations through its NASOC in Grand Forks, 
North Dakota.
  dhs and cbp could strengthen efforts to assess use of resources and 
                     programs to secure the border
Border Patrol Could Benefit From Improving Its Methodology to Assess 
        Effectiveness of its Consequence Delivery System Program
    In January 2017, we reported that Border Patrol agents use the CDS 
to classify each alien apprehended illegally crossing the border and 
then apply one or more post-apprehension consequences determined to be 
the most effective and efficient to discourage recidivism, that is, 
further apprehensions for illegal cross-border activity.\13\ We found 
that Border Patrol uses an annual recidivism rate to measure 
performance of the CDS; however, methodological weaknesses limit the 
rate's usefulness for assessing CDS effectiveness. Specifically, Border 
Patrol's methodology for calculating recidivism--the percent of aliens 
apprehended multiple times along the Southwest Border within a fiscal 
year--does not account for an alien's apprehension history over 
multiple years. In addition, Border Patrol's calculation neither 
accounts for nor excludes apprehended aliens for whom there is no ICE 
record of removal from the United States. Our analysis of Border Patrol 
and ICE data showed that when calculating the recidivism rate for 
fiscal years 2014 and 2015, Border Patrol included in the total number 
of aliens apprehended, tens of thousands of aliens for whom ICE did not 
have a record of removal after apprehension and who may have remained 
in the United States without an opportunity to recidivate. 
Specifically, our analysis of ICE enforcement and removal data showed 
that about 38 percent of the aliens Border Patrol apprehended along the 
Southwest Border in fiscal years 2014 and 2015 may have remained in the 
United States as of May 2016.
---------------------------------------------------------------------------
    \13\ GAO, Border Patrol: Actions Needed to Improve Oversight of 
Post-Apprehension Consequences, GAO-17-66 (Washington, DC: Jan. 12, 
2017). Under U.S. immigration law, an ``alien'' is any person that is 
not a U.S. citizen or national. See 8 U.S.C.  1101(a)(3). According to 
the National Institute of Justice, recidivism refers to a person's 
relapse into criminal behavior, often after the person receives 
sanctions or undergoes intervention for a previous crime.
---------------------------------------------------------------------------
    To better inform the effectiveness of CDS implementation and border 
security efforts, we recommended that, among other things, (1) Border 
Patrol strengthen the methodology for calculating recidivism, such as 
by using an alien's apprehension history beyond one fiscal year and 
excluding aliens for whom there is no record of removal; and (2) the 
Assistant Secretary of ICE and Commissioner of CBP collaborate on 
sharing immigration enforcement and removal data to help Border Patrol 
account for the removal status of apprehended aliens in its recidivism 
rate measure. CBP did not concur with our first recommendation and 
stated that CDS uses annual recidivism rate calculations to measure 
annual change, which is not intended to be, or used, as a performance 
measure for CDS, and that Border Patrol annually reevaluates the CDS to 
ensure that the methodology for calculating recidivism provides the 
most effective and efficient post-apprehension outcomes. We continue to 
believe that Border Patrol should strengthen its methodology for 
calculating recidivism, as the recidivism rate is used as a performance 
measure by Border Patrol and DHS. DHS concurred with our second 
recommendation, but stated that collecting and analyzing ICE removal 
and enforcement data would not be advantageous to Border Patrol for CDS 
purposes since CDS is specific to Border Patrol. However, DHS also 
stated that Border Patrol and ICE have discussed the availability of 
the removal and enforcement data and ICE has agreed to provide Border 
Patrol with these data, if needed. DHS requested that we consider this 
recommendation resolved and closed. While DHS's planned actions are a 
positive step toward addressing our recommendation, DHS needs to 
provide documentation of completion of these actions for us to consider 
the recommendation closed as implemented.
CBP Collects Data That Could be Useful in Assessing How Border Fencing 
        Contributes to Border Security Operations but Needs Metrics to 
        Assess the Contribution to Its Mission
    In February 2017, we reported on CBP's efforts to secure the border 
between U.S. ports of entry using tactical infrastructure, including 
fencing, gates, roads, bridges, lighting, and drainage.\14\ For 
example, border fencing is intended to benefit border security 
operations in various ways, according to Border Patrol officials, 
including supporting Border Patrol agents' ability to execute essential 
tasks, such as identifying illicit-cross border activities. CBP 
collects data that could help provide insight into how border fencing 
contributes to border security operations, including the location of 
illegal entries. However, CBP has not developed metrics that 
systematically use these data, among other data it collects, to assess 
the contributions of its pedestrian and vehicle border fencing to its 
mission. For example, CBP could potentially use these data to determine 
the extent to which border fencing diverts illegal entrants into more 
rural and remote environments, and border fencing's impact, if any, on 
apprehension rates over time. Developing metrics to assess the 
contributions of fencing to border security operations could better 
position CBP to make resource allocation decisions with the best 
information available to inform competing mission priorities and 
investments.
---------------------------------------------------------------------------
    \14\ GAO, Southwest Border Security: Additional Actions Needed to 
Better Assess Fencing's Contributions to Operations and Provide 
Guidance for Identifying Capability Gaps, GAO-17-331 (Washington, DC: 
Feb. 16, 2017). Ports of entry are facilities that provide for the 
controlled entry into or departure from the United States. 
Specifically, a port of entry is any officially designated location 
(seaport, airport, or land border location) where DHS officers or 
employees are assigned to clear passengers, merchandise, and other 
items; collect duties; and enforce customs laws; and where DHS officers 
inspect persons seeking to enter or depart, or applying for admission 
into, the United States, pursuant to U.S. immigration law.
---------------------------------------------------------------------------
    To ensure that Border Patrol has the best available information to 
inform future investments and resource allocation decisions among 
tactical infrastructure and other assets Border Patrol deploys for 
border security, we recommended, among other things, that Border Patrol 
develop metrics to assess the contributions of pedestrian and vehicle 
fencing to border security along the Southwest Border using the data 
Border Patrol already collects and apply this information, as 
appropriate, when making investment and resource allocation decisions. 
DHS concurred with our recommendation and plans to develop metrics and 
incorporate them into the Border Patrol's Requirements Management 
Process. These actions, if implemented effectively, should address the 
intent of our recommendation.
CBP Has Taken Actions to Assess the Effectiveness of Its Predator B UAS 
        and Aerostats for Border Security, but Could Improve Its Data 
        Collection Efforts
    In February 2017, we found that CBP has taken actions to assess the 
effectiveness of its Predator B UAS and tactical aerostats for border 
security, but could improve its data collection efforts.\15\ CBP 
collects a variety of data on its use of the Predator B UAS, tactical 
aerostats, and TARS, including data on their support for the 
apprehension of individuals, seizure of drugs, and other events (asset 
assists). For Predator B UAS, we found that mission data--such as the 
names of supported agencies and asset assists for seizures of 
narcotics--were not recorded consistently across all operational 
centers, limiting CBP's ability to assess the effectiveness of the 
program. We also found that CBP has not updated its guidance for 
collecting and recording mission information in its data collection 
system to include new data elements added since 2014, and does not have 
instructions for recording mission information such as asset assists. 
In addition, not all users of CBP's system have received training for 
recording mission information. We reported that updating guidance and 
fully training users, consistent with internal control standards, would 
help CBP better ensure the quality of data it uses to assess 
effectiveness. For tactical aerostats, we found that Border Patrol 
collection of asset assist information for seizures and apprehensions 
does not distinguish between its tactical aerostats and TARS. Data that 
distinguishes between support provided by tactical aerostats and 
support provided by TARS would help CBP collect better and more 
complete information and guide resource allocation decisions, such as 
the redeployment of tactical aerostat sites based on changes in illegal 
cross-border activity for the two types of systems that provide 
distinct types of support when assisting with, for example, seizures 
and apprehensions.
---------------------------------------------------------------------------
    \15\ GAO-17-152. Tactical aerostats are relocatable unmanned 
buoyant craft tethered to the ground and equipped with video 
surveillance cameras. As of fiscal year 2016, CBP deployed six tactical 
aerostats sites along the U.S.-Mexico border in south Texas.
---------------------------------------------------------------------------
    To improve its efforts to assess the effectiveness of its Predator 
B and tactical aerostat programs, we recommended, among other things, 
that CBP: (1) Update guidance for recording Predator B mission 
information in its data collection system; (2) provide training to 
users of CBP's data collection system for Predator B missions; and (3) 
update Border Patrol's data collection practices to include a mechanism 
to distinguish and track asset assists associated with tactical 
aerostats from TARS. CBP concurred and identified planned actions to 
address the recommendations, including incorporating a new 
functionality in its data collection system to include tips and 
guidance for recording Predator B mission information and updating its 
user manual for its data collection system; and making improvements to 
capture data to ensure asset assists are properly reported and 
attributed to tactical aerostats, and TARS, among other actions.
CBP Uses Other Assets to Provide Security at the Arizona Border, and 
        Would Benefit From Reporting and Tracking Asset Assist Data
    In March 2014, we reported that CBP had identified mission benefits 
for technologies under its Arizona Border Surveillance Technology 
Plan--which included a mix of radars, sensors, and cameras to help 
provide security for the Arizona border--but had not yet developed 
performance metrics for the plan.\16\ CBP identified mission benefits 
such as improved situational awareness and agent safety. Further, a DHS 
database enabled CBP to collect data on asset assists, instances in 
which a technology--such as a camera, or other asset, such as a canine 
team--contributed to an apprehension or seizure, that in combination 
with other relevant performance metrics or indicators, could be used to 
better determine the contributions of CBP's surveillance technologies 
and inform resource allocation decisions. However, we found that CBP 
was not capturing complete data on asset assists, as Border Patrol 
agents were not required to record and track such data. We concluded 
that requiring the reporting and tracking of asset assist data could 
help CBP determine the extent to which its surveillance technologies 
are contributing to CBP's border security efforts.
---------------------------------------------------------------------------
    \16\ GAO, Arizona Border Surveillance Technology Plan: Additional 
Actions Needed to Strengthen Management and Assess Effectiveness, GAO-
14-368 (Washington, DC: Mar. 3, 2014).
---------------------------------------------------------------------------
    To assess the effectiveness of deployed technologies at the Arizona 
border and better inform CBP's deployment decisions, we recommended 
that CBP: (1) Require tracking of asset assist data in its Enforcement 
Integrated Database, which contains data on apprehensions and seizures 
and (2) once data on asset assists are required to be tracked, analyze 
available data on apprehensions and seizures and technological assists, 
in combination with other relevant performance metrics to determine the 
contribution of surveillance technologies to CBP's border security 
efforts. DHS concurred with our first recommendation, and Border Patrol 
issued guidance in June 2014 and Border Patrol officials confirmed with 
us in June 2015 that agents are required to enter this information into 
the database. These actions met the intent of our recommendation. DHS 
also concurred with our second recommendation, and as of September 2016 
has taken some action to assess its technology assist data and other 
measures to determine contributions of surveillance technologies to its 
mission. However, until Border Patrol completes its efforts to fully 
develop and apply key attributes for performance metrics for all 
technologies to be deployed under the Arizona Border Surveillance 
Technology Plan, it will not be well-positioned to fully assess its 
progress in determining when mission benefits have been fully realized.
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee, this concludes my prepared statement. I will be happy to 
answer any questions you may have.

    Ms. McSally. Thank you, Ms. Gambler.
    I now recognize myself for 5 minutes for questions. I think 
my experience in the military, to include moving past 
Goldwater-Nichols in 1986, is probably a strength and a 
weakness in the way I look at this.
    But I think what we are talking about here is as if we were 
a couple of years into Goldwater-Nichols and trying to review 
what the military services and how they were organizing jointly 
and how effective they were. So we are early on in this 
process, and I really do appreciate the efforts to be focused 
more on unity of effort and more joint in the way we address 
these issues.
    We are in a resource-constrained environment, for sure, as 
many of you have referenced. My first thought, Admiral Schultz, 
was looking at and deep-diving into JTF-East and what you are 
doing, seems like there is potential for redundancy with JIATF-
South.
    Now, I realize they have a specific mission and 
authorities, but we all have the same objective here, right? To 
interdict transnational criminal organizations and illicit flow 
of traffic coming from South and Central America into the 
United States.
    So when I think--I know there are different authorities, 
but we are responsible for authorities here, but we have 
similar objectives here as a country.
    When we are talking about interagency whole-of-Government 
specifically to address the issues, more in the maritime 
domain, I think about, if you have two different operation 
centers, two different computer systems, overhead, all that 
comes with that, is there a way for us to think outside the 
box?
    Can you just comment, based on your experiences also, at 
SOUTHCOM, you are at SOUTHCOM, and is there a place for us to 
look freshly at--the JTF-East is focused on homeland security. 
JIATF-South is trying to be more and more the interagency-
focused area.
    Like, where is there a place that we can find better 
synergies, perhaps, even between those two efforts, so that 
even on overhead and air conditioning bills, you know, spending 
where we don't need to? Just to have more of a unity of effort.
    Admiral Schultz. Well, Chairwoman, thank you for the 
question. Clearly, there is always a better way to look at 
every problem. So I would say I think you have an understanding 
of JIATF-South.
    They have been in existence here for about 26 years now. It 
is probably the most recognized global interagency operation 
that gets after the counter threat network, particularly for 
drugs. That is their origin and that is really where their 
authorities lend them.
    Under 10 USC 124, they do the detection and monitoring 
business for the Department of Defense. They have no law 
enforcement authorities, as you know with your defense 
background and homeland duties.
    Ms. McSally. Right.
    Admiral Schultz. That is where they turn over the endgame 
to either our 7th or 11th district Coast Guard operations.
    I think where you see this task force, Joint Task Force-
East and JIATF-South lash up is they are very complementary. 
You know, we try to leverage what they call the critical 
movement alert system.
    We just did some recent operations back in November, as I 
mentioned in my oral statement here. Most recently in the last 
couple of weeks in March, surge operations down in Puerto Rico 
and the U.S. Virgin Islands-Puerto Rico vector.
    That is a vector where there is quite a bit of cocaine 
coming out of South America. There is a lot of violence, 
weapons, money moving back south through Puerto Rico.
    JIATF's focus, because it is resource-informed, like 
everything else in the Federal Government, has been very much 
in the eastern Pacific and the western Caribbean.
    About 85 percent of the drugs that come out of Columbia are 
in the eastern Pacific. But there are also threats in Puerto 
Rico--Puerto Rico, part of our U.S. soil here. We have got some 
responsibilities down there. JIATF and us work there.
    We are able to enhance Unity of Effort with the DHS 
components. We are able to link. I think this works well with 
my dual status as the Coast Guard Atlantic area commander.
    I have operational forces east of the Rockies and the task 
force. We can work in that space where we bring resources to 
the DHS components. We link in DOD capabilities, the linkage 
with JIATF-South and then we get after the threats most 
pressing to the homeland.
    So I think they are complementary. Could there be an 
eventual change in authorities for JIATF-South? I think so. But 
I think if you look at the origins, if you look at the 
resourcing right now, there are some muscle movements here that 
are fairly significant to tackle.
    In the interim period, I think we are working very well 
together. I think, again, the military status that I bring, 
dual-hatted, allows some linkages there. My recent experience 
in SOUTHCOM, I think, also plays well to that.
    Because bringing the heft of DOD and all that capability 
and capacity down to working with an HSI attache or a small 
team in a foreign location or even a place like Puerto Rico, 
there is different lexicon there.
    Ms. McSally. Yes, that is----
    Admiral Schultz. I think that is sort-of that middle space 
we work very well in, ma'am.
    Ms. McSally. Absolutely, and I would like to follow up with 
you, again, and just to think outside the box to whether there 
needs to be new authorities to look at this freshly for the 
best, at this moment in time, whole-of-Government approach, you 
know, to address this problem set.
    Chief Beeson, looking to the organization for JTF-West and 
its division into corridors, are those corridors perfectly 
aligned with the sectors? If not, is there an opportunity for 
us to align sectors to corridors so we are all operating in 
similar areas?
    Just again, as we are evolving this process, if your border 
patrol sectors are your ground force of this joint force, and 
your, you know, the JTF is looking jointly at each corridor, is 
there a way to line those up if they are not lined up? Is that 
being looked at at all?
    Chief Beeson. I want to say that they are aligned. As I 
think about the corridors there are four, the California 
corridor, which covers the two sectors in California. Arizona 
corridor covers the two Arizona sectors. West Texas-New Mexico 
covers two sectors, and then you have got the south Texas, 
which has three, the Laredo, del Rio, and Rio Grande valley.
    So each one of those corridors has a commander that is 
responsible for the coordination and collaboration of the DHS 
efforts. So I think that the way that they are aligned, if I 
understand your question correctly, I think, works.
    Ms. McSally. OK, great. Thank you. I am over my time.
    The Chair now recognizes Mr. Vela, for 5 minutes.
    Mr. Vela. Yes. I would kind-of like to follow up with the 
Chairwoman's questions.
    That is, Vice Admiral Schultz, with respect to JIATF-South 
and JTF-East, I am curious as to your thoughts as to why we 
need both?
    Admiral Schultz. Well, Ranking Member Vela, great question. 
I think we need both because, I think their focus is definitely 
different. At the end of the day, as I mentioned, the statutory 
responsibility that JIATF-South has supports drug interdiction, 
drug interdiction in the maritime domain.
    Are there possible expansions of authorities that allow you 
to do different, you know, counter-network-type stuff at JIATF-
South? Clearly, that is in the realm of the possible. I think, 
we work--not we think--but we clearly work in that space with 
DHS components.
    Again, we at JTF-East are not directing operations from my 
parent location in Portsmouth, Virginia. We are enabling 
operations. We are synchronizing operations.
    We are getting after that unity of effort. We are getting 
after than collaboration of regional DHS component work. We are 
linking that to the operational priorities that are established 
from the Secretary of Homeland Security.
    They are mutually compatible reinforcing with JIATF-South, 
but I would say, right now, as I mentioned to the Chairwoman, 
because JIATF-South's work is resource-informed, they put their 
focus against the highest threats.
    Right now, the eastern Pacific, given that JIATF's focus is 
drugs, most of the cocaine is moving in that vector. We support 
that. I mentioned in my oral statement that we are organized 
under these regional integration groups. We have an eastern 
Pacific RIG. That is one of our frameworks. It is very well-
standing and well-oiled.
    Back when Chief Beeson and I were stationed out in 
California in our previous assignments, we worked this coastal 
California corridor and the partnership was terrific there. 
When this whole task force model started up the question was, 
why don't you just take that collaboration--and nationalize 
that? It worked well there. I have been other places it didn't 
work so well.
    March forward, we have these task forces now. I think we 
leveraged that learning, that coordination at the tactical 
level and that is where you get the differences.
    There are the DHS components. There is the local State, 
Federal tie-in there. Then you have got JIATF that has got a 
National mission getting after drugs.
    But again, as the Chairwoman suggested, there are always 
ways to revisit authorities, broaden authorities. The question 
would be, you know, how do you resource that? How do you fund 
that? What is their bandwidth to take on too many different 
things?
    They are the best in the world at the counter-narcotics and 
the maritime mission right now. I am not sure what happens, you 
know, if you don't commensurately resource that and you just 
put more work on them. You may take your eye off the ball and 
not be as effective at your primary mission at the end of the 
day.
    Mr. Vela. So, I know we have JIATF-South. We have JIATF-
West, right, stationed in California or Hawaii?
    Admiral Schultz. JIATF-West, sir, is out of Hawaii.
    Mr. Vela. Do we have another JIATF? Or are those the two 
JIATF?
    Admiral Schultz. Sir, under the counter-narcotics 
frameworks, there is JIATF-West, JIATF-South. There are other 
JTFs under the Department of Defense that do different things. 
There is JTF-North, JTFs that support different entities, but I 
think in the realm I believe you are asking, it is west and 
south.
    Mr. Vela. I am not anywhere familiar with the work of 
JIATF-West but my question for you, Chief Beeson is basically 
the same thing.
    What do you see as the distinction between what JIATF-West 
does and what JTF-West does and maybe you could comment on your 
thoughts, in terms of the reasons that we need both as well?
    Chief Beeson. So I look at the task force, the Joint Task 
Force-West, East and I as what is really a whole-of-Government 
approach.
    I was a chief in a sector when these task forces were stood 
up, and I was also the commander of that task force in the 
corridor. What I saw, I felt like we had a very good 
relationship with our DHS partners in the corridor, but I did 
see it get better.
    We were able to get more assets to come together and look 
at threats, to identify priorities, and then take the actions 
that we needed to take against the priorities, the appropriate 
law enforcement consequences.
    As I look at what we are doing as a JTF-West, it is really 
furthering that DHS Unity of Effort, bringing together the 
partners. We are doing a much better job, I think, on 
identifying our threats and sharing our intelligence now than 
we were in the past.
    I think this task force is a way to continue that effort, 
to continue to align the DHS assets as we go after these 
transnational criminal organizations.
    Mr. Vela. Yes. I am running out of time as well. I am 
just--so what is JIATF-West doing that is different than what 
JTF does?
    Chief Beeson. Well, like you, I have to admit I am not real 
familiar with JIATF-West.
    Mr. Vela. OK. Fair enough. I am out of time, and Ms. Ayala, 
maybe we can explore later. I kind-of have the same questions 
with respect to JTF-Investigations, HSI and HIDTA, but we can 
address that later.
    Ms. McSally. Thank you, Mr. Vela.
    The Chair now recognizes Mr. Rutherford from Florida, for 5 
minutes.
    Mr. Rutherford. Thank you, Madame Chairwoman. You know, I 
just had the distinct privilege to go and visit Task Force-
West. I have to tell you, I came back much encouraged by what I 
saw from the Joint Task Force operations.
    Admiral, if I could ask you first, you know, I think as we 
see more pressure placed on our land borders, we are going to 
see more pressure. You know, as I heard it explained several 
times, when you squeeze the balloon, the air goes to the, you 
know, the ends. Particularly in San Diego, we saw that with the 
panga boats that started making the end runs but you responded 
to that.
    Now, to disrupt their business model, they are being forced 
to go hundreds of miles out to sea and around. I think the 
highest I heard that they even went up to San Francisco Bay, I 
think they said one time. I realized that wasn't practical for 
their business model.
    So my question is this: On the maritime response, I know 
that you all have some very old cutters and things, but can you 
talk a little bit about the needs--now I am shifting to Joint 
Task Force-East, I think, because I am--being from Florida, I 
am really concerned about the maritime borders over there.
    Can you talk about the threat when we tighten up the Rio 
Grande Valley and how that is going to impact our JTF-East?
    Admiral Schultz. Yes, Congressman. Clearly, if, as you 
noted the balloon analogy, if you squeeze the balloon, the 
pressure sort-of releases elsewhere. So when there is a focus 
on the land border, clearly, there is a nice enhanced risk of 
more maritime smuggling.
    You know, we and our partners patrol the waters routinely 
and we are paying great attention to that. Some of the stuff, 
the manifestation we saw as you talked about California with 
the panga threat, that was marijuana in large quantities, some 
methamphetamines coming up.
    It used to be human smuggling on the waterfront there. We 
stymied that with this JTF-like model before in a collaborative 
environment just working with our DHS partners. I think that 
shows the power of what enhanced collaboration, unity of 
effort, Federal, State, local linkage can do together.
    So we are very much aware of the pressure at the land 
border. I say we are constantly, because of our partnerships, 
because of the shared intelligence, the fusion of intelligence, 
I think if we see a trend, a threat vector that moves land 
smuggling to the maritime domain, we will be ready for that.
    Mr. Rutherford. Thank you. Thank you.
    Chief Beeson, I will first tell you that having dealt with 
span of control quite a lot in my previous career, I did not 
see--I thought you all had a very good span of control in the 
JTF.
    Another thing that I know is this. You cannot build 
relationships in the middle of a crisis. You can only access 
the relationships that you have already built.
    One of the things that I notice about HSI and the Border 
Patrol working together across the border that there is a lot 
of relationship-building going on there that I had no idea 
existed. That was eye-opening.
    The ability to integrate your intelligence, your 
communication, and your response on the border to respond to 
those invasions was--was quite impressive.
    So my question is, Chief, what technologies would you say 
are needed in each of your sectors to better achieve that 
detection so that we have a good response time?
    You know, what I saw in Tucson was excellent. The BigPipe 
in the intelligence work that was going on there. Can you talk 
a little bit about what you need in some of the other sectors 
where I saw less technology?
    Chief Beeson. So as the commander for the Joint Task Force-
West, my responsibility is to leverage a whole-Government 
approach against counter network operations, against the TCOs 
that are, you know, out violating the borders.
    In my current capacity, I am not the technology guy. That 
would be to the component to Customs and Border Protection, so 
I would want to defer to them on their technology needs.
    I can tell you that they are buried and, you know, quite--
as you saw when you were out there, the terrain is vast. It is 
diverse. So the technology to address that is going to be 
pretty complex, and we have to get back to you from them on 
that.
    Mr. Rutherford. Thank you.
    I am out of time, but let me just say, Ms. Ayala, the HSI 
folks were doing a fantastic job working across that border and 
congratulations to all of you on JTF. I think it is working 
well.
    Ms. McSally. Thank you.
    The Chair now recognizes Mrs. Demings from Florida, for 5 
minutes.
    Mrs. Demings. Thank you so much, Chairwoman and to our 
Ranking Member as well and to our witnesses this morning. Thank 
you for being here.
    Admiral Schultz, yesterday the commandant of the U.S. Coast 
Guard was quoted as saying even though the service he commands 
faces the same readiness concerns as the other military 
services, the Coast Guard is left behind while other branches 
of the military receive budget increases.
    Given that the current administration's fiscal year 2017 
supplemental budget requests are supposed to bolster military 
and border security capabilities, how will JTF-East strategy 
and operations be impacted, if the Coast Guard continues to be 
excluded from the overall discussion on resources and needs?
    Admiral Schultz. Well, Congresswoman, thank you for the 
question. Clearly, with the fiscal year 2018 budget only being 
a blueprint at the Hill and the formal budget with a 
Congressional justification not coming until May, I am at limit 
at what I can speak to there.
    I am confident that Coast Guard will be able to sustain our 
current level of operations and our on-going acquisitions 
efforts with the budget that is proposed. There is talk of a 
defense supplemental out there, I think to the tune of $52 
billion.
    I think the commandant's comments speak to, you know, we 
are one of the five armed services. Clearly, when you talk 
about National security, homeland defense, there are Coast 
Guard equities as part of that discussion.
    I believe that will be a multi-year effort. The Department 
of Defense has many readiness challenges as we have been a 
Nation at war here for more than the past decade.
    The Coast Guard clearly shares some of those readiness 
challenges, some of our force construct challenges. Clearly, as 
one of the five armed services, we would like to see, you know, 
potential future inclusion there.
    But again, we understand the demands on DOD, the challenges 
on DOD. I think the comments, the commandant's comments 
yesterday were framing it in don't forget the Coast Guard is 
one of your five armed services and we have National security 
and homeland security missions, and just to keep the aperture 
broad for future inclusion in those discussions. But by no 
means are we at risk in 2018 here to sustain our level of 
operations.
    As it impacts the Task Force, as it impacts my Coast Guard 
duties, I am confident the Secretary, having served under his 
leadership at SOUTHCOM, understands the unique capabilities 
that the Coast Guard brings to the problem set better than 
anyone in this town here.
    I think we will be in fine shape, here. But clearly, we as 
an armed service, we want to be considered on those readiness 
challenges, because they are very real in the Coast Guard as 
well.
    We had 6 years of funding at or below the Budget Control 
Act level. I think when you play that forward, looking back 
playing forward, that is about a 10 percent loss of purchasing 
power. So we do have some readiness challenges, but----
    Mrs. Demings. Isn't there a recommendation to cut the Coast 
Guard's budget by 28 percent? Are you saying if that occurred, 
that there would be no effect on your readiness to meet your 
responsibilities?
    Admiral Schultz. No, Congresswoman. I am saying that the 
2018 budget, which has been bantered around in the press is 
pre-decisional. There is talk about cuts in there. I am not 
going to speak to that.
    I believe the commandant and my leadership would say 
conversations with the Department, with the Secretary about our 
needs, and I believe those needs will be addressed that will 
allow us to sustain our operations and maintain our critical 
momentum on our acquisitions programs.
    But we have come out of multiple years of funding at the 
BCA level or below, which has not allowed us to sustain grown 
with, you know, the increasing costs of things.
    Mrs. Demings. OK. Thank you.
    Chief Beeson, it is good to see you again. Thank you for 
being here. How has the creation of JTF-West affected the way 
CBP and its DHS partners interact with other State, local, and 
Federal law enforcement as well as Tribal partners?
    Chief Beeson. The local level corridor--so there are within 
JTF as mentioned, there are the four corridors. At that level, 
the commanders there are interacting with State, local, Tribal 
law enforcement partners, something that we have been doing 
since I have been a Border Patrol agent.
    I mean, certainly, the ability for us to work together to 
address border security issues has been very impactful for us. 
You know, we utilize Operation Stonegarden to provide some 
source of funding for some agencies so that they are able to 
leverage that stream of funding and provide some border 
security assistance through increased patrols by law 
enforcement in particular areas. Then it usually runs the whole 
gamut from the State, local, and Tribal.
    Mrs. Demings. I know my colleague asked about technology. 
What other areas are there room or is there room for 
improvement?
    Chief Beeson. So I think, you know, technology is certainly 
one. Staffing, you know, we continue to look to increase our 
size. Then, of course, and then there are still the border 
barriers. We are still looking to enhance those.
    Mrs. Demings. OK. Thank you.
    I yield back.
    Ms. McSally. The Chair now recognizes Mr. Duncan from South 
Carolina.
    Mr. Duncan. Thank you, Madame Chairman. We have been 
focused on the Southwest Border for a long time for 
interdiction of smuggling and narcotrafficking.
    In fact, in 1974, in response to a study by the Justice 
Management Division of the U.S. Department of Justice, the 
study was entitled ``A Secure Border, Recommendation Number 7: 
A Secure Border.''
    Recommendation No. 7 of this study suggested the 
establishment of a Southwest Border intelligence center now 
known as EPIC, led by the DEA and staffed by representatives of 
that agency, U.S. Customs and now probably 15 other agencies 
involved in EPIC.
    I have visited that center and I point out 1974, and here 
we are in 2017. So the question I have for the panel is is how 
is EPIC leveraged in your JTF?
    I will start with Ms. Ayala.
    Ms. Ayala. Well, JTFI as a functional task force is 
primarily involved in the improvement of the investigative 
process. Of course, part of that is to leverage as much 
intelligence as possible. Our main goal is to focus on a 
customer service model, the special agent in the field working 
on investigation.
    EPIC, just like all of the National capital region centers, 
are leveraged to ensure that there is no duplication of effort, 
that there is significant deconfliction, and that we are 
maximizing the broad knowledge that there is out there and the 
capabilities of our interagency partners. So from that 
perspective, we are utilizing EPIC.
    But mostly in our models we are looking at transnational 
criminal networks and how they impact homeland security. So we 
are focusing in on prioritizing those threats and then creating 
models that actually enable us to look at a network.
    So instead of looking at individual targets or 
organizations, we are looking at multiple cells and 
organizations that are supported by multiple sources of supply, 
money launderers, and illicit pathways and other illicit 
support systems. That is the breadth of what we are looking at.
    So we are not looking at individual intelligence or small 
organizations. We are looking at networks that are impacting 
the international arena that sometimes are the subject of 
dozens of investigations and hundreds of arrests and 
indictments and prosecutions on both sides of the border.
    Mr. Duncan. Thank you, ma'am.
    Admiral, on the East with air and marine, I mean I visited 
EPIC so I have seen some of the capabilities. Are they helping 
you guys, you know, I guess, triangulate and find the aircraft 
and the marine assets that are maybe smuggling contraband or 
drugs into the country? How do you utilize EPIC? It is just for 
my edification, really.
    Admiral Schultz. Congressman, most of our maritime 
activities here through the transit zone are coordinated 
through JIATF-South. But JIATF-South has linkages across all 
the Federal intelligence centers. They have international 
linkages with Interpol.
    We have representations there from it is more than a dozen 
international partners. So that is the fusion point or the 
consolidation point. So there is a relationship there with the 
DOJ, the justice centers in the El Pasos of the world, the El 
Paso Intelligence Center. So that is sort of our fusion point.
    When all that works through one lens it is fused. It is the 
best intelligence. It is pushed out to our operational 
resources.
    You know, at the end of the day, the best capability for us 
with my Coast Guard hat on, which is complementary to the Task 
Force that is a Coast Guard cutter, a major cutter with the 
capability of carrying a helicopter in the back, ideally an 
airborne use of force capable helicopter, which can shoot out 
the engines. A lot of the threat is fast boats smuggling about 
a thousand, plus or minus, kilograms cocaine.
    When you can push that intelligence from those centers 
through JIATF-South to the tactical operational units out 
there, whether it is a Coast Guard law enforcement attachment 
on a Navy ship or on a allied partnership or a Coast Guard 
cutter, there is patrol aircraft. We can leverage that 
intelligence.
    We have visibility through all the National intelligence 
capabilities on about 80 percent of the maritime activity. We 
action about less than a third of that, about 30 percent of 
that. So there is really a capacity discussion here.
    We could roll more drugs up out of the transit zone with 
more capabilities, but we are pretty darn good at doing what we 
do. It is more of a capacity discussion. We reach back to all 
those centers like EPIC to fuse that information and give us 
the best ability to target our efforts.
    It is intelligence-driven operations is really what we are 
driving for because we are capacity-constrained. When I was a 
young ensign, you know, 33 years ago, we were boring holes in 
the ocean just out there sort of aimlessly patrolling, looking 
for some vessel that might move through our patrol box.
    Today, we, with specific information fused through JIATF-
South, we can go not quite to the spot on the map, but we can 
get pretty darn close, launch an unmanned aerial system from 
the back of a cutter, put a DOD patrol aircraft over the top, 
then we can get on that vessel and create an end-game, an 
interdiction or a disruption at sea.
    Mr. Duncan. All right. Well, thank you for that.
    I chair the Western Hemisphere Subcommittee on Foreign 
Affairs. So I meet with the leaders in Panama and Costa Rica 
and Colombia. One thing that they keep driving home is 
apprehension of drugs in large bulk shipments as they are 
coming out of Colombia is more effective than those parcels 
being broken up in smaller, as they migrate North and being 
broken up even into backpack size parcels to be brought across 
the border.
    So the question I have, I guess for you Admiral, but Ms. 
Ayala may answer this. How well are our partners working in 
Panama, Costa Rica, really, Honduras, El Salvador, the whole 
Central American isthmus, but Colombia as well? Can you all 
touch on is it effective working with our foreign partners on 
this?
    Ms. McSally. If you can make it quick? The time is----
    Admiral Schultz. Congressman, absolutely it is effective. 
The partner nations, when I talk about the JIATF successes, the 
Coast Guard interdicted more than 200 metric tons last year 
with our interagency partners.
    When you roll up the contributions of the other partner 
nations, I think there are about 340 metric tons taken out of 
the entire transit system. About two-thirds of those cases have 
a partner nation connection. About 35 to 40 percent is a 
partner nation end-game asset, a boat, a cutter, a naval ship 
from one of those countries does the interdiction.
    Sometimes that is informed with U.S. intelligence that we 
can push through, you know, the right filters to them. 
Sometimes it is a DOD or a Coast Guard or CBP aircraft that 
brought that Guatemalan special naval vessel to the scene.
    So I would say the partnerships have grown exponentially in 
recent years. DOD does some support and capabilities for them, 
Border Patrol, Coast Guard, CBP, we are training them. We have 
a persistent presence in those countries. We have attaches. We 
have liaisons.
    So I would tell you that is a very good news story. 
Sometimes that story, I think, is lost in the collaboration, 
but our partners are in that fight, because they are kind-of 
caught as the meat in the sandwich.
    The end-users of drugs in the United States, the source 
country in the Indian Ridge and Central America is feeling, you 
know, that squeeze that manifests itself with people showing up 
at our Southwest Border.
    Ms. McSally. All right, the gentleman's time has expired.
    Mr. Duncan. Thanks.
    Ms. McSally. The Chair now recognizes Mr. Correa from 
California, for 5 minutes.
    Mr. Correa. Thank you, Madam Chair.
    General question to all of you, big picture statement. Vice 
Admiral Charles Ray at the last hearing we had here mentioned 
that the Coast Guard was unable to interdict, his words, ``580 
known smuggling events due to capacity challenges.'' It sounds 
to me like he just didn't have the assets to interdict those 
580 known smuggling events.
    Some of the comments you have all made right now, which is 
working with other countries, collaborating with other 
countries, and given the fact that we are all limited by 
resources in trying to come up with an optimal resource 
allocation in terms of investing our taxpayer dollars, what 
would you say would be our highest yield in terms of asset 
investment going forward?
    New ships for the Coast Guard, greater cooperation with our 
neighbors to the south in terms of intelligence, multi-layered 
defense, multi-layered border system, so to speak? It is a 
general question, but I am asking you to answer it given your 
experience out there in the field?
    Ms. Ayala. I would say probably a little bit of both on the 
multi-layered and the foreign investment. But I will say that 
as we look at criminality and our opportunities to engage it, 
we always want to engage it as far away from the U.S. border as 
possible. So investment in capacity building with a foreign 
partner is always crucial to us.
    Mr. Correa. How? Specifics.
    Ms. Ayala. Well, in many cases in working with Department 
of State, our intention is to train them to be able to 
investigate better, to be able to work with host countries, to 
strengthen some of their laws or some of their capacities, to 
engage in investigative surges with them.
    Every year we do engage in that type of investigative 
search where we deploy HSI, CBP, and DOD personnel to Central 
America and other countries to work on priority investigations 
that have impact on both sides of the border.
    These type of operations in just a short time yield up to, 
like, 800 arrests, identification of 32 transnational criminal 
organizations, a dismantlement of nine.
    But mostly to identify the networks and look for 
vulnerabilities that we can exploit so we can better attack the 
adversary further away from the border.
    So international----
    Mr. Correa. So that is based on local intel that you pick 
from sources outside the United States?
    Ms. Ayala. Yes, and sources in the United States also.
    Ms. Gambler. If I can add, Congressman? I think it is a 
really important question, and it gets at the heart of what has 
been a key finding from GAO's work on border security programs 
and investments, which is that the Department has not 
established those metrics and those assessments to provide 
information for looking at which investments are yielding which 
types of results and to help inform decision making, whether it 
is technologies, whether it is additional infrastructure, 
whether it is additional manpower.
    That is why the Department putting in place some of the 
metrics that we have been recommending through our work is so 
important.
    Mr. Correa. Thank you.
    Admiral Schultz. Congressman, per my answer to Congressman 
Duncan, it is a capacity conversation. I think from a Coast 
Guard perspective I think the best way to get after that for us 
is to maintain the momentum we have on our recapitalization 
efforts, our National security cutters, our off-shore patrol 
cutters, our fast response cutters.
    The Congress has been very supportive keeping steady 
predictable funding moving forward for us will allow us to 
replace 50- soon to be 60-year-old ships that are working on 
those threat vectors.
    Our folks are doing a terrific job. But kind-of walking 
back to my answer about the readiness challenges, when you are 
maintaining a 50-plus-year-old ship, you know, suppliers for 
those parts don't exist anymore. There's--it's challenging. We 
are doing a little bit of that on the backs of our people.
    So getting those new ships fielded, putting the 
helicopters, we have C-27s, 14 C-27s that came to the Coast 
Guard from DOD with the support of Congress. We need to 
missionize those. They are slick aircraft.
    Right now they go out and they can patrol, but they don't 
have any capabilities to detect and surveil out there. Getting 
the predictable funding going forward to make them 
operationalized is part of the solution.
    Mr. Correa. Admiral Ray, let me interrupt you and say, 
Admiral Ray--I should say Admiral Shultz--mentioned again 580--
--
    Admiral Schultz. Right.
    Mr. Correa [continuing]. Known drug-smuggling targets.
    Admiral Schultz. Yes, sir.
    Mr. Correa. Not enough assets to go after them. It sounds 
like you need assets as opposed to a predictable revenue 
stream, predictable funding.
    Admiral Schultz. Well, Congressman, more clearly adds to 
the equations, you know. I talked about the 70 percent we 
didn't act. We have intelligence and we acted against 30 
percent of that. So that is a conversation purely about 
capacity.
    But you need to have the right type of assets. There have 
been many forays in recent years about pushing vessels out 
there. You need that vessel. I mentioned previously about what 
is that capability that really allows you to be effective on 
that mission?
    It is that flight deck-equipped Coast Guard cutter with an 
embarked helicopter that can deploy use of force and an over-
the-horizon boat supported by unmanned aerial surveillance or 
maritime patrol aircraft.
    So the right capabilities adds to the equation. Just 
pushing ships out there with the wrong capabilities--we have 
ally partners that contribute. The Navy was very much part of 
this mission set. But the Navy is subscribed elsewhere in the 
world with a rising, you know, Russian threat and the South Sea 
China threat.
    We are not seeing a lot of the Navy in this hemisphere. 
Admiral Tidd--General Kelly talked about the Coast Guard being 
his Navy in the Western Hemisphere. That is reality.
    So there is a resource component, sir. But I think the 
momentum getting those assets out there is probably the 
practical way to keep moving forward here.
    Mr. Correa. I yield, Madam Chair.
    Ms. McSally. The Chair now recognizes Mr. Hurd from Texas, 
for 5 minutes.
    Mr. Hurd. Thank you, Chairwoman. Admiral Shultz, if you had 
$999 million in fiscal year 2017 how would you use it? How 
would you suggest it be used in JTF-East?
    Admiral Schultz. Congressman, I would have to first get 
some more people to execute $999 million, about 40 people. If 
we had additional resources in JTF-East, kind of agnostic to 
the number, talking about additional resources, we would build 
on the momentum we have.
    My goal since I have been here the last 8 months is we are 
the startup JTF-East. I say we are like the commercials that 
talk about BASF. We don't build it. We make it better. We don't 
direct operations, we power operations.
    Mr. Hurd. So maybe let me redirect the question. If Coast 
Guard, and again I know you are wearing your JTF-East hat, 
right. But if Coast Guard had $999 million, how would they use 
it?
    Admiral Schultz. So if we had just under $1 billion, we 
would get after some of our readiness challenges that we have 
been forced to kick the can on a little bit here. That is 
maintenance. That is operations.
    We are looking to----
    Mr. Hurd. Can you buy any more boats with that?
    Admiral Schultz. We are looking to maintain momentum on 
bringing an icebreaker into our ranks. We have got two 
icebreakers--one medium, one heavy.
    There are demands in the Artic that warrant a heavy 
icebreaker right now. We are looking to move that down the 
rails. The commandant has talked about trying to field that 
ship by 2023. That is an ambitious endeavor. Some, you know, 
additional funding toward that to meet that--support.
    Mr. Hurd. Might help make it a little bit quicker.
    Admiral Schultz. Absolutely.
    Mr. Hurd. Good. Copy.
    I just want to confirm, and you say this multiple times, 
and Chief Beeson, I am coming to you with the next question.
    A third of the actionable intelligence that Coast Guard 
has, they can only act on a third of that because of capacity 
issues.
    Admiral Schultz. We action about one-third of the 
information we have. We have information on about 80 percent of 
the maritime movements. We get after about a third of that.
    Mr. Hurd. So Chief Beeson, is that a similar problem that 
Joint Task Force-West and Border Patrol has when you look at 
our Southern Border with Mexico?
    Chief Beeson. I would say that it is not. I mean, we are 
not in terms of having a vast number of intelligence targets to 
go after. That is something that if you were to give me $999 
million I would be looking at building our intelligence 
capabilities.
    You know, I think that I have seen some really, to me, 
phenomenal intelligence successes where leveraging the 
intelligence community has really paid off for us.
    But it is for us, in terms of intelligence targets, it is 
not what I would call a target-rich environment. It is 
something we need to continue to build on.
    Mr. Hurd. So this question, again, to you Chief Beeson, and 
Ms. Ayala, I welcome your impact. As a former human 
intelligence officer I would say that countering 
narcotrafficantes and kingpin human smugglers is not a National 
intelligence priority.
    If we made it a National intelligence priority, had it as 
one of the top three of the NIPF, that we would see increased 
intelligence coming from Mexico and Central America that can be 
used to direct some of your limited human resources. Am I crazy 
to think that? Would you agree? Help me refine that 
understanding.
    Ms. Ayala, you can go first if you are interested.
    Ms. Ayala. Yes. I would say that I would be happy to answer 
that question and give you certain examples of how we 
prioritize and are able to leverage that in a different 
environment in Classified setting.
    Mr. Hurd. Sure. So are you happy with the amount of 
intelligence that is being produced on the 19 criminal 
organizations that are operating in Mexico?
    Ms. Ayala. I know from our perspective we are beyond the 19 
criminal organizations as we are looking at the network. We 
could always use more intelligence. We could always use more 
systems and order in individuals to be able to go through that 
intelligence, properly analyze it and determining what we go 
after first.
    Our goal is----
    Mr. Hurd. Which is the lead agency responsible for 
collecting intelligence on drug trafficking networks coming 
through Mexico? What agency within the Federal Government? CIA? 
What is DEA's role? Can you--microphone?
    Ms. Ayala. The DEA's role is also to be overseas and 
collect intelligence. But as we know and as being former 
military operator and I know that you have a background as a 
significant operator, there are a lot of other individuals that 
are out there doing that work and funneling it through 
different places. So again, I would be happy to discuss that 
with you in a different environment.
    Ms. McSally. Great. We are going to go through a second 
round here. I want to talk about the process and prioritization 
of air assets.
    So we have two geographic JTFs. And then we have your air 
force is air and marine. Can you guys talk me through the 
process of how you prioritize requirements for specifically ISR 
air assets? Who makes the decision on where those air assets go 
and how nimble that is?
    Then, Ms. Gambler, I think you talked a little bit about 
this related to Predator B. I want your perspective after I 
hear.
    So obviously they may have competing requirements, so who 
decides where the air assets are going? How quickly does that 
turn and is it modified on a daily, weekly, monthly basis? Do 
either of you guys want to go first?
    Chief.
    Chief Beeson. So I will go back to having recently come 
from the Tucson sector. We had an air tasking operations group. 
So it was basically all of the providers of air support within 
the corridor, primarily the Office of Air Marine.
    There was some DOD support. We did get some State and local 
support and even civil air patrol provided support to us. So 
they are meeting on a biweekly basis, sitting down looking at, 
getting an intel brief to start with.
    OK. Here is what we are seeing, here is where we see the 
activity occurring, the threats, things of that nature. This is 
we think we are going to need air support and then plugging in 
based on that.
    So the priorities are set by the commanders in the field. 
Primarily, the agents in charge at the stations are saying 
these are my priorities. Those would come up and get vetted at 
the sector level. We are perfecting that at the maritime.
    When you get to land-centric, if Chief's team comes forward 
with a request to the Coast Guard, maybe out of San Diego in 
that quarter, we will respond to those on a case-by-case basis. 
We don't fly a lot over the land. But we certainly will support 
those requests when they come in.
    Ms. McSally. Great. But generally speaking, there is not a 
lot of fluidity between JTF-East and JTF-West support assets. 
You are generally talking about what is within your ability to 
task in JTF-East. But there----
    Admiral Schultz. Well, if we are talking in the wet domain 
I would say there absolutely is a coordination, to where at the 
very point end, at our sectors in the Gulf of Mexico at the 
regional coordinating mechanisms, they would work across that 
seam without border.
    I mean, if there is a need we talk to CBP air marine, they 
talk to Coast Guard. We can interchange. We can be a--you know, 
what we try to do is minimize redundancy.
    Ms. McSally. Yes.
    Admiral Schultz. So I say in Chief's world, you know, 
predominantly in the land-centric border we are not flying a 
lot of Coast Guard air there. So I would say you are not that 
synergy because there is not that sort of demand signal. We are 
working in different spaces most of time in West.
    Ms. McSally. Yes, but specifically air and marine assets I 
guess is what I am getting at.
    Admiral Schultz. Yes, I would tell you ma'am, I think there 
is a great story there.
    Ms. McSally. OK.
    Admiral Schultz. I think we schedule jointly together, we, 
you know, rooted out any redundancies. We can do hot hand-offs 
where, you know, these cases, particularly in the water when 
they are fast-moving targets operating at night, shutting down 
the daytime, if you are not on top of them, they are very 
difficult to go back and detect again.
    So it is all about that efficiency, that crisp hand-off. I 
think we have got that wired pretty well.
    Ms. McSally. Ms. Gambler, your perspective on----
    Ms. Gambler. Yes, related specifically to Predator Bs, 
Chairwoman, we found that there were some differences across 
the different air and marine operation centers for Predator B.
    So some of those operation centers did have procedures for 
coordinating requests for Predator B support and then some 
didn't. So our recommendation was to better improve those 
coordination procedures as they relate across all of the 
different air and marine operation centers for the Predator Bs.
    Ms. McSally. So they are specifically asking requests for a 
platform as opposed to a capability in some of these centers?
    Ms. Gambler. So we looked at what are called the four 
operation centers from which air and marine flies the Predator 
Bs. So some of those air operation centers have procedures for 
coordinating the request that they receive for air support and 
that kind of thing and some didn't. So hopefully that 
clarifies.
    So, our recommendation was related to strengthening those 
coordination procedures and making sure they exist across the 
different operation centers from which Predator Bs fly.
    Ms. McSally. Yes. My only point is, again, I am coming from 
my military experience, you don't ask for an asset. You ask for 
capability. There are other manned surveillance capabilities 
out there.
    So if you need intelligence you don't say this is the 
platform I want. So an intelligence process needs to look at 
what the requirements are, what the prioritization is, and then 
what platforms can meet that requirement. Not I need my 
Predator today, is all I am getting at. So OK.
    I am over my time, so you want another round?
    Mr. Correa. If I may? Thank you, Madam Chair.
    Ms. McSally. Recognize Mr. Correa, for 5 minutes.
    Mr. Correa. Question to everybody again, but I will start 
out with Ms. Gambler if I can? About a decade ago the 
Department of Homeland Security deployed physical 
infrastructure, fence, wall, anything you want to call it and 
technology on the Southern Border.
    At the request of this committee, the GAO ultimately issued 
multiple reports, many of them not too favorable, showing 
mismanagement, cost overruns, and ultimately led to the 
cancellation of SBInet technology program.
    To this day, CBP lacks a metric to show how these kinds of 
investments or that investment a decade ago actually 
contributed to our security, border security.
    So my, you know, my question to you is in general. Lessons 
learned, are we heading down that same road today which is 
essentially, again, investing heavy sums of taxpayer dollars, 
not sure of what the ultimate return will be in terms of 
security, securing our taxpayers and citizens?
    Ms. Gambler. I think there are several lessons learned from 
GAO's past work looking at DHS's efforts to deploy 
infrastructure and technology. One, Congressman you already 
mentioned, which is the need to have in place performance 
metrics to be able to assess what we are getting out of those 
investments.
    The second one relates to DHS oversight and management of 
these acquisition programs. We have reported on technologies, 
infrastructures, and even in other areas that DHS doesn't 
always follow its own acquisition management processes.
    Because it doesn't always follow those processes 
consistently it leads to some of the things you mentioned, 
Congressman, in terms of schedule slippages, cost overruns, and 
performance than is less than what is desired.
    So it is important for the Department as it moves forward 
with acquisition programs to ensure it is following its 
management processes. That it is testing the technologies that 
it is putting out there to make sure that they operate in the 
environments where they are being deployed.
    So, I think those are two key lessons learned from GAO's 
work on border security technology and assets.
    Mr. Correa. So again, it is a matter of rolling out some 
metrics to assure that we are watching the results of these 
investments, and No. 2, constant vigilance to make sure that 
what we bought is what we are getting.
    Ms. Gambler. Management and oversight are two important 
words there, Congressman, yes.
    Mr. Correa. Thank you.
    Any other comments from the rest of the panel?
    Madam, I yield my time.
    Ms. McSally. Thank you.
    Mr. Rutherford, do you want a second round of questions? 
The Chair now recognizes Mr. Rutherford from Florida, for 5 
minutes.
    Mr. Rutherford. Thank you, Madam Chairwoman.
    Ms. Ayala, could you talk a little about one of the 
vulnerabilities of the TCOs is once they move their drugs 
north, they got to move their money south.
    I know speaking with a couple of the HSI agents, they spoke 
about some very good coordination of effort that identified a 
particular bank that I think was moving like $20 million.
    Could you talk a little bit about that and how that could 
be replicated across the whole Joint Task Force area?
    Ms. Ayala. OK. I am not sure specifically which case that 
you are referring to, but I will tell you that, I mean, 
obviously the components here--specifically, HSI has over 40 
years of money laundering expertise that dates back to the Bank 
Secrecy Act. So we have a lot of experience in all different 
areas.
    A lot of, obviously, authorities that help us to intercept, 
whether it be cash or look for vulnerabilities in our financial 
systems, whether they be funnel accounts or the misuse of 
certain things. We also work with private sector in order to 
develop best practices.
    I can tell you that we are looking at all of the movements 
of bulk cash on the way down. Not just at the border, but 
throughout the United States and pipelines. We are working on, 
obviously, to seize assets in bank accounts.
    Obviously some of that is difficult when we are looking at 
funnel accounts and the rapid way in which they move and the 
way that that system is used in order to then remove money near 
the border and then try to bulk cash it out.
    So those are certain ways. There are many vulnerabilities 
along the way for the organization. Where it becomes 
complicated is their use of trade-based money laundering, 
which, of course, is in large scale and it involves billions 
and billions of dollars in money that is going south through 
trade investments that are not what they appear.
    So one of the main things that we do in JTFI is prioritize 
the top threats of criminal networks. Many of them involve 
money-laundering investigations.
    So we are looking at the complete network. We are 
prioritizing the same investigations that are in the field so 
that we can lend value to them and increase the possibility, 
not just for seizures, but for increasing prosecutions and the 
seizure of assets.
    Mr. Rutherford. Thank you.
    Chief Beeson, could you talk a little bit about BigPipe and 
how that works in Arizona? Why something like that hasn't been 
replicated in the Rio Grande Valley sector?
    Chief Beeson. So BigPipe is a platform, a software 
platform. Let us see how I can explain this. But basically it 
provides a secure method for law enforcement that have an 
account, that can sign into it to chat.
    There is like a chatroom, if you will, about what is going 
on within the area of operations. There is also the ability to 
downlink video from an ISR platform that might be out operating 
in the area. One of the--either the Predator or a helicopter 
with a camera mounted onto it.
    So what they are doing is it is just a way for folks 
operating within the tactical operation centers to look at what 
the threats are, request assets, maybe do some coordination of 
resources. It could be replicated across the Southwest Border.
    I don't know that it is or isn't being used in Rio Grande 
Valley. I just know, having come from Tucson, that we were 
making effective use of it there.
    Mr. Rutherford. I don't believe they are using it, well, 
they are not using BigPipe, but I mean they are trying some 
integration.
    But that is why I was asking about the technology needs 
for, you know, across the board. Because, that is something 
that--the integration that we saw there that I guess you 
started is something that we need to replicate over in the Rio 
Grande Valley.
    Chief Beeson. I would like to take credit for starting it, 
but the reality is I had a number of predecessors before me 
that actually did that, so----
    Mr. Rutherford. Oh, OK. Well, you just mentioned that you 
were there so I just think--OK. Thank you.
    I yield back, Madam Chair.
    Ms. McSally. Thank you. Still have some more questions if 
you guys don't mind? Bear with me here.
    Ms. Ayala, can you share with us, and I know we are in an 
Unclassified setting, the presence of TCOs within the United 
States, within the 50 States?
    I mean, I have seen some different numbers out there about 
how many cities we have a pretty significant presence of cartel 
activity and operatives. Can you just share your perspectives 
on that at the Unclassified level?
    Ms. Ayala. Well, I probably can't really go into the 
numbers, the specifics of city by city, but what I can tell you 
is that our strategy is to pursue every element of those 
transnational criminal organizations from a network point of 
view, whether they are in China, coming up through the Southern 
Border and approaches through the border and into, you know, 
Chicago or Detroit or wherever that is.
    That we are looking at all of the sources of supply, the 
distribution, the transportation networks and putting that 
together and looking at supply chain investments and seeing how 
we can look for vulnerabilities in their actions along the 
entire crime spectrum to be able to then pursue some 
enforcement action against them.
    So they are everywhere. We have transnational criminal 
organizations in every city across the United States. We are 
working to minimize the impact in all those cities.
    Ms. McSally. Is there anything that we can do, that 
Congress can do, to help your activities to combat cartel 
activity within the 50 States?
    Ms. Ayala. Well, I think that when we look at individual 
agency missions and goals and some of the infrastructure that 
we built to support that, sometimes we look at it in 
stovepipes.
    So for instance, when we are looking at the hiring of 
agents, special agents for criminal investigations, we often 
forget that we really need, you know, forensic auditors and 
financial experts and other analysts and other missions to 
support that effort.
    Even if we were able to take on everything we wanted 
without prioritization, we would still need more assistant U.S. 
attorneys, and more infrastructure in the court system to be 
able to support those investigations.
    So I think looking at a holistic approach to what hiring 10 
Border Patrol agents or office of field operations or Coast 
Guard would require as far as investigators and all of the 
support infrastructure as a whole, I think would help in our 
endeavor.
    Ms. McSally. Great, thanks. Back to just overall 
effectiveness of the JTF so far, can you think of an example--I 
know we are in an Unclassified setting--of a case or a mission 
that you saw now that we have JTFs that show that JTFs are 
effective?
    Like, had we not had this new construct perhaps you 
wouldn't have been able to operate in a way that impacted a 
specific mission. Like, can you give any examples that actually 
show that what we are doing here is increasing effectiveness?
    Ms. Ayala. So what I was going, we will fill in three 
distinct gaps in DHS capabilities, things that we are doing now 
that weren't available before that we developed jointly, most 
of us together in our integrated teams.
    So in the past, DHS lacked a mechanism to prioritize the 
top transnational criminal networks and now we have. We 
developed the HomeCort process. The deputies of all of the 
components and the task force directors and the heads of all of 
the investigative services are on there.
    We also lacked a way to consistently tie together and 
manage all of the investigations, operations, arrests related 
to a criminal network. We were able to develop that, which is 
Comprehensive Criminal Network Analysis, which we did not have 
before in the Department.
    We also were able to develop National case coordination, 
which now manages that and is able to coordinate across the 
entire domain and spectrum.
    The main thing, third, though is that we have been able to 
focus on the investigative process of work, which we really 
necessarily did not before. The criminal investigative process 
and looking for ways to support that through technology and 
weaknesses.
    So this enables us to have better cross-programmatic and 
cross-domain visibility. Our strength is in the interagency 
team and the broad knowledge that they are bringing together to 
National centers.
    Because of that we have been able to do things like not 
looking at ways of maybe couching future metrics, but in ways 
of value-added statements.
    Like, for instance, like in a human trafficking 
investigation, a network that we assisted in and did 
comprehensive criminal network analysis, we were able to expand 
the knowledge of the network by 200 percent in half of the 
time, which builds in all those efficiencies in man hours.
    In addition, that resulted in tripling the number of 
indictments more than tripling from 10 to 12 to 38. You know, 
how does that matter? Because then now it is harder to 
reconstitute itself.
    In this case, because it was human trafficking, obviously 
prevented people to continually be victimized or create larger 
victims. I can go on in many different scenarios----
    Ms. McSally. No. That is great. Thank you. So you are a fan 
of the JTFI organizations it sounds like?
    Ms. Ayala. I am a fan of my team and the support that I 
receive from my executive agents and my partners in West and 
East that support those efforts.
    Ms. McSally. Commander Beeson.
    Chief Beeson. I always forget that button. I think that a 
couple of examples for me come to mind. Most recently in 
Arizona, a capacity was needed by the team out there in order 
for them to further their investigative efforts.
    So that capacity request came into Joint Task Force-West. 
It was then sourced out. Then we did source it also to Joint 
Task Force-I. They have been able to meet the capacity request. 
So they will be getting that resource down to Arizona, if it is 
not there already, for them to utilize.
    I think that that is something that prior to the task 
forces, that probably would have gone just up one particular 
stovepipe and might not have been met. But I do think it was 
met.
    Additionally, I think of some, you know, bringing in 
citizenship and immigration services into the taskforce has 
enabled us to identify, I mean, very recently, within the last 
couple of weeks, individuals who were pending immigration 
benefits in the United States that we know were engaged in 
narcotics smuggling in Mexico.
    They are not going to get those benefits now. That is, to 
me, something that certainly adds value.
    Ms. McSally. That is great.
    Admiral Schultz.
    Admiral Schultz. Madam Chairwoman, I would tell you in a 
couple places. First and foremost, I think our DHS partners 
have collaborated well in the past. I think we have upped that 
game. We are able to bring in capabilities and capacities from 
outside regional locations toward better end effect against 
transnational criminal organizations.
    Our recent efforts in Puerto Rico, where we linked in DOD 
linguists, we linked in DOD analysts. We brought in P-3 support 
that wouldn't normally support that vector in the Western 
Hemisphere Initiative, illicit pathway initiative I talked 
about.
    In Central America we are fielding a capability with 
partner nations where they can enroll migrants moving up 
through the Central American corridor. We can enroll them.
    We have biometrics as they move across, you know, they 
leave the Indian Ridge, they show up in the Darien, the jungle 
regions there. They move through the Darien into Costa Rica and 
up the chain. We enroll them. The partners see that. As they 
move up, their stories change.
    They start to dial in on what are those folks with these 
changing stories? At what point do we need to get a partner 
nation lashing up with the U.S. law enforcement folks to figure 
out who that person really is before they present at the 
Southwest Border?
    So I think there are many places. I use the metric that 
when I reach out to my DHS partners in the field and they say, 
hey, we want more support from you, to me that is the greatest 
testament. We are building relationships and they are asking 
for more support to be more effective in their work.
    Ms. McSally. Great. Thank you.
    All right. The Chair now recognizes Ms. Barragan for 5 
minutes.
    Ms. Barragan. Thank you. I just left a meeting with 
Secretary Kelly, and I didn't have an opportunity to get a 
clarification so I was hoping maybe somebody here maybe to 
elucidate on this.
    Right now when an agent goes out for an enforcement action 
they have, as he stated, they have a name of somebody who is a 
target and that agent has orders to go find this target.
    But if, for example, the order is to go out and arrest 
Nanette and my friend, you know, Tim is with me, and it turns 
out Tim is undocumented, he is being picked up, too. Are there 
any policy memos or any guidelines that are being used on 
prosecutorial discretion as it pertains to collaterals?
    Ms. Ayala. I would say that that is a question that I would 
leave to the component to answer from a joint task force 
perspective. What we are looking at is the targeting of human 
smuggling organizations and people involved in the fraudulent 
processes and abuses along the way. So our warrants or our 
arrests would be involved, large transnational criminal 
networks involved in the process.
    Ms. Barragan. Anybody else up here that might be able to 
shed some light on this?
    Chief Beeson. So I am the director for the Joint Task 
Force-West for Arizona, so like Director Ayala, we are focusing 
on transnational criminal organizations. CBP is focusing on 
border security.
    We are not in the business that you just described. That is 
not within our portfolio of--at the moment we are focusing on 
the actual border itself, border security there.
    Ms. Barragan. OK.
    Ms. Ayala, Mr. Trump wants to add more enforcement and 
removal operations. What does that do to the workload of 
Homeland Security Investigations?
    Ms. Ayala. Well, I think we just had a bit of a discussion 
on anytime that we increase the number of enforcement removal 
or CBP officers. That there is always a correlation between the 
number of HSI investigators that you would need in order to 
support the investigative process.
    I know there is a ratio out there that we could probably 
look at that I would be happy to maybe get to you as far as how 
many investigators to other operators within the Department.
    Ms. Barragan. What does it do to ICE's Office of the 
Principal Legal Advisor?
    Ms. Ayala. This is what we were speaking about earlier 
about the holistic approach to looking at the assets and the 
support that is always needed, because you are always going to 
need--any time you plus-up in one area you have to plus-up the 
support mechanisms.
    So that would be Office of Principal Legal Advisor. That 
would be mission support. That would be analytical support. It 
could be other technological support and other equipment that 
goes along with it.
    So it is a complete, let us say, huge pie of percentages 
and trying to figure out which correlates to what. I know that 
there are work force models that are out there that each 
component has that addresses that.
    Ms. Barragan. So that reminds me, you know, we have been 
hearing a lot about ramping up and hiring a lot of new ICE 
agents and, you know, adding 10,000 agents, but we haven't 
heard a lot about adding support for the courts, right? The 
courts are already backed up.
    As somebody who has actually represented a woman--in an 
asylum case from Guatemala, you know, my case took years. I was 
limited to maybe an hour-and-a-half in court. I would keep 
going back until I got, you know, a full 6 hours.
    We aren't really hearing anything about ramping up cost for 
courts and making sure that we are following through on the 
judicial side. Do you foresee that we are going to see that or 
do you have any comment on that?
    Ms. Ayala. Our goal is always to have more prosecutorial 
resources or space and so that we are separating that from 
looking at transnational criminal organizations.
    We could go out there with all the assets we have and make 
20 time more cases, but we don't have the prosecutorial 
resources to take those investigations, and we don't have pre-
trial services to go through and meet all those individuals.
    We don't have detention space to house them, then, you 
know, we can't take on those number of cases. So that is why 
there is prioritization everywhere.
    So we could definitely support the increase of support in 
all aspects of Government that correlate back to our 
investigative process.
    Ms. Barragan. OK.
    Then the last question is to you, Vice Admiral. You know, I 
was hearing about the possible cuts for the Coast Guard and TSA 
to build a border wall. How do the Coast Guard's aging assets 
limit your ability to carry out your missions?
    Admiral Schultz. Well, Congresswoman, I would say that due 
to the terrific capabilities of our folks and the commitment we 
are getting the work done with our aging assets.
    But you can only squeeze so much life out of a ship. You 
know, we have got ships that are 50-plus years old. With the 
help of Congress we have momentum to recapitalize those ships, 
our offshore patrol cutters.
    We just awarded a contract back in September to build the 
first 9 of what we hope will be a fleet of 25. We just had a 
ceremony in Seattle, here for the Coast Guard Cutter Monroe 
this past weekend with the secretaries--and the commandant.
    That is the most capable platform we ever had. So the end 
of the day predictable, sustained budgets allow us to continue 
our recapitalization efforts to get those old ships out of 
service, put new ships on there.
    The new ships are more capable. The living conditions for 
the men and women on-board are much more adequate and, you 
know, we want to continue that momentum. I think we are on a 
good trajectory to recapitalize the Coast Guard.
    Clearly we can do more with more, but getting those old 
ships out and new ships fielded is really a critical part of 
our continued success.
    Ms. Barragan. Great. Thank you.
    I yield back.
    Ms. McSally. The Chair now recognizes Mr. Correa for some 
final questions.
    Mr. Correa. Thank you, Madam Chair.
    You know, gentlemen, if you looked at the border area, 100 
miles plus 100 miles plus-minus north-south, if you look at it 
economically probably would be one of the world's largest 
economies. Probably one of the top five economies in the world. 
It is just a lot of economic activity in that area.
    So it behooves all of us to try to coordinate our 
activities north and south of the border when it comes to a lot 
of these criminal elements because, of course, otherwise we 
would be fighting a war, so to speak, with one hand tied behind 
us.
    Chief Beeson, a minute ago you said that through your 
coordination, a person that was about to get immigration 
benefits was denied those benefits because you had intel that 
that person had been engaged in narcotics activities in Mexico. 
How did you come up with that information, if you can say?
    Chief Beeson. Not sure that I can in this setting.
    Mr. Correa. Be as general as you can.
    Chief Beeson. It was the result of an investigation. So as 
the result of investigation, which is the gathering of 
information, gathering of law enforcement intelligence, they 
were able to determine that was the case.
    Mr. Correa. Any of those investigations with coordination 
of assets or government south of the border?
    Chief Beeson. Thinking of that particular event, it does 
not come immediately to mind. I would have to take that back 
for the record.
    Mr. Correa. Is one of the--one prior life as a State 
legislator in California, one of the complaints I had from 
folks in the Tijuana area was the lack of coordination with 
immigration folks and when it came to following individuals 
that have criminal records, especially when it came to 
deportations.
    In those days, and I don't know if it is still the case, 
deportation you are opening some gates. Folks walk out into 
Tijuana and the folks in the southern side wouldn't know if you 
were deporting somebody based on a speeding ticket or that 
person was a convicted murderer that was now being released 
into Mexico.
    So my question in general is do we have coordination with 
Mexican authorities to make sure that we can follow some of 
these bad hombres, so to speak, not only north of the border 
but south of the border to make sure that folks are kept in 
check that should be kept in check?
    Chief Beeson. So I believe the answer is yes. Routinely 
before we remove anybody to Mexico we provide Mexico with a 
list of the individuals, and I am speaking specifically for CBP 
in terms the folks that we remove, with a list of the 
individuals that are being removed and the reasons for it.
    We work closely with Mexico to check and see if individuals 
that we have arrested are wanted, if there are outstanding 
warrants for them in Mexico.
    On occasion we do see where there are individuals that we 
have arrested in the United States that have outstanding 
criminal warrants in Mexico so we are making sure that when 
they are returned to Mexico that Mexico knows and we are 
essentially meeting them at the border and turning them over to 
them.
    Mr. Correa. My final question, shifting gears a little bit; 
drug law in Mexico is a little bit different than it is in the 
United States right now, given the emerging pattern in the 
United States, clear pattern of legalization of marijuana in 
the United States whereas in Mexico it is still a serious 
crime. If you are caught with possessions of significant 
amounts you are going to do 10, 20 years in jail.
    Is that complicating the relation between the United States 
and Mexico in terms of enforcement of drug----
    Admiral Schultz. Congressman, I would tell you this.
    Mr. Correa [continuing]. Policy?
    Admiral Schultz. The government of Mexico remains a key 
partner, I think, in the land domain under drug enforcement. On 
the maritime domain we have a great working relationship with 
CMAR, which is the Mexican navy. We will be meeting with 
Mexican counterparts here coming up in April.
    You hit the nail on the head. I mean, there is key economic 
trade across the border and our challenge is to disrupt these 
TCOs while allowing and enabling that trade to continue to 
happen.
    If you look at Mexico, you know, from my time at SOUTHCOM, 
everyone focuses at the goal line defense at the Southwest 
Border. I think Mexico's focus is clearly their Guatemalan-
Mexican border.
    If you think about this as a layered defense of why are 
folks showing up at our border, most of these days they are 
Central Americans, not Mexicans anymore.
    It is that instability in Mexico--excuse me, in Central 
America by the transnational crime that is ending up there. 
That is where the drugs land. Most of the drugs land in Costa 
Rica now, increasing amounts, in Panama, in Guatemala.
    Guatemala is the first stop country for most of the drugs. 
That is the violence that comes with the drugs. There is a 
question about breaking big bulk drugs that you could interdict 
at sea down to small--once it is in the land domain it is very 
much a problem set, and there is a tremendous violence that is 
associated with it.
    So I think the Secretary's view is push the border out. You 
partner with the Mexicans where you can at our land border, but 
clearly at their land border with Guatemala. That is part of 
the problem set as well.
    We have a very good working relationship across our 
respective components. I think the task force is apt to 
complement that, but not create new entities and new 
partnerships with the Mexicans that confuse them. I think there 
are existing strong relationships that we will continue to 
build on.
    Mr. Correa. Thank you.
    Chair, I yield the remainder of my time.
    Ms. McSally. Thank you.
    I want to thank the witnesses for their valuable testimony 
and Members for their questions. Members of the committee may 
have some additional questions, and for the witnesses we will 
ask you to respond to those in writing. Pursuant to committee 
Rule VII(D) the hearing record will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]

                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
